<html>
<title> - PROMOTING DOD'S CULTURE OF INNOVATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-102]

                 PROMOTING DOD'S CULTURE OF INNOVATION
                               __________

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                              HEARING HELD
                             APRIL 17, 2018
                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-683                     WASHINGTON : 2019                                    



                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
               Eric Mellinger, Professional Staff Member
                      William S. Johnson, Counsel
                          Justin Lynch, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan, a Representative from California, Committee on 
  Armed Services.................................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Griffin, Hon. Michael D., Under Secretary of Defense for Research 
  and Engineering, Department of Defense.........................     3
Schmidt, Dr. Eric, Chairman, Defense Innovation Board, Department 
  of Defense.....................................................     4

                                APPENDIX

Prepared Statements:

    Griffin, Hon. Michael D......................................    45
    Schmidt, Dr. Eric............................................    53
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    44
    Thornberry, Hon. William M. ``Mac''..........................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    69
    Mr. Brown....................................................    68
    Mrs. Davis...................................................    67
    Mr. Gallagher................................................    67


 
           
                 PROMOTING DOD'S CULTURE OF INNOVATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, April 17, 2018.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    For the last three National Defense Authorization Acts, 
reform, especially acquisition reform, has been a major 
priority. The purpose is to get more value for the taxpayers 
out of the money spent, but, even more importantly, to make the 
Department more agile in dealing with the variety of security 
challenges we face.
    As Secretary Mattis has testified, our technological 
position has eroded in recent years, compared with our leading 
adversaries. We confront threats that do not conform to our 
traditional notions of warfare. And the historical evidence 
indicates that we may well be a victim of our own success. As 
one writer put it, when looking at the interwar years, the 
losers were forced by events to reexamine everything. Military 
losers are intellectual radicals. The winners, complacent in 
victory, feel the need for self-examination far less.
    The answer is the Department of Defense must work to be 
more innovative in technology, in policies, and in thought. One 
of the many books offering advice to businesses sums it up with 
a chapter title that is ``Innovate or Die.'' That has been the 
goal of the reforms of recent years and of the reform proposals 
for the fiscal year 2019 NDAA [National Defense Authorization 
Act] that I am releasing today.
    We are privileged to have two witnesses who are superbly 
qualified to help guide our efforts as well as those of the 
Department in the quest to develop a culture of innovation. One 
of the reforms we enacted 2 years ago was to create an Under 
Secretary of Defense for Research and Engineering, to be the 
primary driver of innovation in the Department. Dr. Michael 
Griffin was confirmed in that position about 2 months ago and, 
among other things, is the former administrator of NASA 
[National Aeronautics and Space Administration].
    Dr. Eric Schmidt is the chairman of the Defense Innovation 
Board, and formerly chairman and chief executive officer of 
Google and its parent Alphabet, where he remains a technical 
adviser. He is here, however, only in his capacity with the 
Defense Innovation Board.
    We are very grateful to have both of you here. I might 
alert members that immediately after this open hearing, we will 
reconvene in classified session to go in greater detail about 
some of these issues.
    Let me at this point yield to the gentlelady from 
California, who is the acting ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 43.]

     STATEMENT OF HON. SUSAN DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you, Mr. Chairman. And I want to ask 
unanimous consent to put the ranking chair statement into the 
record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 44.]
    Mrs. Davis. Thank you. I certainly appreciate the 
chairman's calling today's hearing on the need for more 
innovation and technology development in the Department of 
Defense. And we are honored to have both of you here today to 
serve as witnesses on this critically important topic. We have 
been talking about it for a long time, but actually addressing 
it in a way that is going to continue to make a difference is 
part of, really, what we want to see happen.
    Maintaining a culture of innovation does matter. Innovation 
ensures our service members have the technological edge they 
need. Innovation has the power to win tomorrow's wars before 
they are fought. We must continue to promote a culture of 
openness, looking for new ways to do things, being willing to 
accept prudent risk in trying something different, and 
constantly looking ahead rather than behind.
    But we also know that the Department of Defense cannot go 
it alone. They must work with the private sector and academia. 
No less important are investments in STEM [science, technology, 
engineering, and math] education, programs that develop junior 
talent into future tech leaders and policies that promote an 
environment in which global collaboration, discovery, 
innovation, public institutions, and industry can thrive.
    I had an opportunity to read Dr. Schmidt's statement, and I 
want to thank you, because it provides a kind of reality test 
for us and how do we continue to do many of the advances that 
we have been working on, and you note those in your statement 
very clearly, but also, build an architecture that is going to 
bring us into the future, and certainly respond to the needs of 
the men and women who go to war on behalf of our country.
    I look forward to hearing your testimony today. Thank you.
    And I, excuse me, and I yield back.
    The Chairman. Without objection, both of your written 
statements will be made a part of the record.
    I do want to comment, Dr. Griffin, that nobody has read 
yours, because we just got it. And I think it is important--I 
realize that when you are an administration official, it has 
got to be cleared by all of these different levels, but 
whatever the administration, it is important for those involved 
in getting us written statements to get them timely, or else 
there is just really no use in doing it.
    And, again, nobody has read your statement, because I think 
it just came at some point this morning. I am not fussing at 
you, but I am fussing at all those layers that are responsible. 
It is kind of a good summary of our acquisition problems. If 
you got all these layers of people that have to approve 
something, it takes a long time to get something, and maybe 
that is an appropriate analogy for the innovation topic today.
    But, without objection, your full written statements will 
be made part of the record. We are grateful to both of you for 
being here.
    And Dr. Griffin, the floor is yours.

   STATEMENT OF HON. MICHAEL D. GRIFFIN, UNDER SECRETARY OF 
  DEFENSE FOR RESEARCH AND ENGINEERING, DEPARTMENT OF DEFENSE

    Secretary Griffin. Thank you, Mr. Chairman.
    First of all, my apologies. The statement is late, and the 
error is mine, and no other excuse is permissible.
    So, moving forward, Chairman Thornberry, Ranking Member 
Smith, Acting Ranking Member Davis, and members of the 
committee, I do appreciate your entering my written statement 
in the record and I want to thank you for the opportunity to 
discuss ways that we, as the Department of Defense, can foster 
a culture of innovation throughout the Research and Engineering 
Enterprise.
    The reality is that we live in a time of global access to 
technology and global access to scientific talent. It is no 
longer preeminently concentrated here in America. The air, 
land, sea, space, and cyber domains have all experienced 
dramatic capability advances, and have done so throughout the 
world. These advances, coupled with our adversaries' commitment 
to a demonstrated pace of prototyping and experimentation and 
fielding that, at present, far outstrips our own pace, present 
a formidable challenge to U.S. forces operating around the 
globe.
    It is this erosion of U.S. technological superiority that 
led to the establishment of the position which I now hold as 
Under Secretary for Research and Engineering. Our mission is to 
ensure that we maintain our technological edge, and I am 
honored to be here today to talk with you about that.
    I believe that I come to this position reasonably well-
versed in the threats that face the United States today, and I 
am indeed concerned. We are in a constant competition. In a 
world that has now equal access to technology, innovation will 
remain important always, but speed becomes the differentiating 
factor. Greater speed in translating technology into fielded 
capability is where we can achieve and maintain our 
technological edge. We must seek innovation not only in our 
technology, but in our processes. I look forward to instilling 
within the Department a culture that embraces a more agile 
approach to development.
    Now, with that said, I would be remiss if I did not 
highlight the DOD R&E [Department of Defense Research and 
Engineering] Enterprise, which consists of our labs, our 
engineering and warfare centers, and our partners in the FFRDCs 
[federally funded research and development centers], UARCs 
[university affiliated research centers], academia, and 
industry, both small and large business, who have given us the 
military capabilities that we enjoy today, and that will give 
us the ones we will need in the future.
    The Department is addressing critical technology and 
capability gaps through a combination of adaptation of existing 
systems and the development and introduction of innovative new 
technologies through our labs and centers and DARPA [Defense 
Advanced Research Projects Agency] and other entities.
    The Department continues to push the envelope with research 
into new technologies, such as autonomous and unmanned systems, 
artificial intelligence, machine learning, biotechnology, space 
technology, microelectronics, and cyber, both offense and 
defense.
    These technology areas are not just important to the 
Department, they are the focus of global industry. And we are 
focused not just upon technological innovation, but also upon 
pursuing new practices and organizational structures to support 
this culture of innovation. Earlier this year, Deputy Secretary 
of Defense Shanahan said, and I quote: ``Everyone wants 
innovation, but innovation is messy. If the Department is 
really going to succeed at innovation, we are going to have to 
get comfortable with people making mistakes.''
    From my own background of producing experimental hardware 
when I had possibly more enjoyable jobs, I can certainly say 
that no progress is possible without the willingness to take 
chances and make mistakes with today's hardware in order that 
tomorrow's systems will be better.
    We are, today, making investments across the full spectrum 
of innovation. These areas include early stage research and 
development, repurposing commercial and nontraditional 
technologies for national security purposes, the advancement of 
manufacturing technologies, red teaming to identify our own 
vulnerabilities, new technology demonstrations, and 
experimentation and prototyping. Our adversaries are presenting 
us today with a renewed challenge of a sophisticated, evolving 
threat. We are, in turn, preparing to meet that challenge and 
to restore the technical overmatch of the United States Armed 
Forces that we have traditionally held.
    I thank you again for the opportunity to testify on this 
critical issue, and I look forward to your questions. Thank 
you, sir.
    [The prepared statement of Secretary Griffin can be found 
in the Appendix on page 45.]
    The Chairman. Thank you, although I cannot imagine a job 
that would be more enjoyable than the one you have now to help 
the Department of Defense be more innovative.
    Dr. Schmidt, thank you for being here.

  STATEMENT OF DR. ERIC SCHMIDT, CHAIRMAN, DEFENSE INNOVATION 
                  BOARD, DEPARTMENT OF DEFENSE

    Dr. Schmidt. Thank you, Mr. Chairman. I completely agree 
with----
    The Chairman. I might get you to--yeah, hit the button, 
please.
    Dr. Schmidt. Sorry.
    Thank you, Mr. Chairman. And I completely agree with what 
Dr. Griffin just said. I think it is crucial for our Nation. I 
have worked with a group of volunteers over the last couple of 
years to take a look at innovation in the overall military, and 
my summary conclusion is that we have fantastic people who are 
trapped in a very bad system. And I am concerned that you all 
are not going to get what you think you are going to get, 
because of the deficiencies of the system, and I want to take 
you through that.
    I might start with a couple of simple examples. We visited 
a mine sweeper. And a mine sweeper is, obviously, important. 
And there is a young sailor who is beaming. I go up to him and 
say, ``what are you beaming about?'' He said, ``we just 
upgraded our computer.'' They upgraded from Windows 95 to 
Windows XP, which was delivered in 2001. His job, by the way, 
was to watch for mines 8 hours a day on the screen of his 
Windows XP computer. No one I knew, and no one I could find all 
up the chain of command could fix this obvious violation of 
Department policy around adopting Windows 10.
    We have visited more than 100 sites, and one of the sites 
we visited we had 20 officers of various kinds, all very 
committed to innovation, and we had a presentation on 
innovation occurring at the base. A programmer gets up and 
shows us rapid development methodology, quotes from my book, 
talks about how it is all done right. Sounds great. We discover 
that there are only two people on the base that are doing this. 
Of course, there are 20 officers in charge of these two people. 
But I guess the even worse news is one of them is being 
reassigned to a different base and will not be able to do any 
more programming, and they cannot figure out a way to swap the 
billets so this person can stay in their base.
    We are at a secret briefing with the National Security 
Agency on an opponent in the crypto-world by a very, very 
talented young crypto-expert who says that he is being 
transferred to a different base and will not be able to work on 
crypto anymore. This is the state of the talent of our young 
people and, frankly, why many of them are leaving for the 
private sector. They want to serve.
    One of our new-generation airplanes had a potential 
software problem. We were asked to look at that. We went to 
visit. We discovered that it has a first-generation CPU 
[central processing unit], which was the processor that is in 
the airplane, that had been deployed and was out of date when 
it was deployed; but they are excited about a new version of 
this same CPU coming out in approximately 2024, which will be 
out of date when it is delivered. When questioned hard by our 
team, the rules were so constraining, the engineers did not 
have a choice. This is madness, in my view. I can give you 
example after example of this in the details.
    So my conclusion, or our conclusion, is that innovation 
definitely exists, but there is no real mechanism and no 
incentive for the way the current structure is sort of adopted. 
And, in fact, if I can make a strong statement, the DOD 
[Department of Defense] violates pretty much every rule in 
modern product development. The spec is developed and is 
finalized before production starts. The way you really do it is 
you start iteratively and you learn from your mistakes and so 
forth. That is called agile development. It is essentially 
impossible to do, because of the way the rules are set.
    There are no permanent software people. Software, when done 
right, is essentially continuous. And the way the software is 
done is the same way as hardware is procured. You write a spec 
and then you wait for the software to show up, you make sure it 
meets all the specs and then the contractor goes away and you 
are done, which precisely delivers what you do not want now.
    If you were in 2001, and you had been asked to write a spec 
for the equivalent of a smartphone in 2018, none of the 
technologies that are in the smartphone that you have today 
were effectively available in one form or another at the time. 
And yet, that is how we do almost all of our procurement, if 
you go back to the way the cycles work. It is crazy.
    Much better to do it more iteratively. If you cannot do it 
every week, do it every month; if you cannot do it every month, 
do it every year. But once a decade means that the new hardware 
will mean that the new software all has to be rewritten, and, 
again, that is what drives the craziness.
    Once certified, a weapon system cannot be changed. We were 
in a control center which had a secret classification, and they 
were using a protocol that I recognized as a computer 
scientist. And I said, ``well, would it not be obvious to use 
this protocol, have a computer and have a military programmer 
take that protocol and then expose an answer that was useful 
for the air fighter?'' And the answer came back, ``that is 
illegal.'' And I said, ``we are inside of a secret facility. 
You have a programmer who is a military programmer, and they 
are not allowed to connect a computer into your network?'' And 
they said, ``absolutely, because the whole thing was certified 
as unchanging.'' Again, a complete lack of understanding of how 
iteration and improvement would occur.
    The model that the military uses where they outsource 
everything to large contractors has served us maybe well for 
these large weapons programs, but does not work at all for the 
kinds of stuff I am talking about. You need a completely 
different model. The networking computer resources are sort of 
out of the dark ages, like out of the 1970s. People wait for 
hours to log in, and then networks are slow. It is a complete 
violation of the concept of abundant computing resources, which 
allow people to build flexible systems.
    The computer scientists, which we cannot find very many of, 
are not a separate track. Imagine if the way you did doctors 
and nurses in the military was you would have them become a 
doctor or a nurse for 6 months and then transfer them back out. 
It is a separate profession. It is obvious to me that computer 
science and, in particular, programming should be a separate 
discipline with its appropriate training and hierarchy and so 
forth.
    There are many examples of systems where there are two 
systems that should have been interconnected, but vendor A 
built it this way and vendor B built it this way. And so we 
have soldiers, literally enlisted professionals that we, in our 
country, have, you know, asked to join the military, sitting 
there and it is called swivel typing. They look at it and then 
they read the number and then they type it over here. And then 
they read the number here and they type it over here, right.
    Now, this is the easiest of all computer programming 
problems. And, again, a small programming team can do that in a 
weekend, and yet the system is not able to do that for the 
military. Enormous efficiencies out of such simple things.
    Since every decision is protested, there is a risk strategy 
where not much risk is taken, because whenever the military 
actually makes a decision, they know that they will spend 
another year or two in some kind of contest. And it just goes 
on and on.
    And I think this group feels strongly that this is not 
okay, but let us say you thought this was like, okay, things 
are fine, the country is doing well, it is important to note 
how at least one potential future adversary, China, is 
investing extremely heavily and rapidly in artificial 
intelligence, and has announced publicly that the goal by 2030 
is to actually be the leading force in the world. So, again, 
there are competitive countries and competitive challenges that 
we need to address.
    Now, we can talk about what to do. We have a long list. Our 
team produced a list of approximately 14 recommendations, which 
the leadership in the DOD has generally indicated they strongly 
agree with. And these are recommendations that are consistent 
with the things that I have talked to you about. Things like 
the COCOMs, the combatant commanders, should have 100 engineers 
to go fix things, that software should be a separate process, 
that there should be a program around psychological safety 
where the people are encouraged to take risks without losing 
their jobs. In fact, maybe people could be promoted because 
they took risks as opposed to promoted because they did not 
take risks, which is part of the culture. Trying to organize 
around big data, collecting data. If you are going to work in 
artificial intelligence, to do anything, you need the data to 
train against. Construction and setting up of an AI [artificial 
intelligence] center.
    My personal view is that the R&E [Research and Engineering] 
and AT&L [Acquisition, Technology and Logistics] split that you 
all did a couple of years ago was very sharp, which brought Dr. 
Griffin in and his team, which is excellent. And I can also 
tell you that Secretary Mattis and Deputy Secretary Shanahan 
understand this very well and they are very, very committed to 
addressing these issues.
    So I think we have strong leadership on the military side. 
I know that you all are very concerned about this. So I think 
these are problems that can be addressed.
    Thank you very much.
    [The prepared statement of Dr. Schmidt can be found in the 
Appendix on page 53.]
    The Chairman. Just very briefly, Dr. Griffin, do you 
largely agree with Dr. Schmidt's diagnosis?
    Secretary Griffin. It would be very difficult for me to 
agree more strongly with him. The way that we, broadly 
speaking, decide what we want to buy in the Department of 
Defense before committing to buying it has been, I think, 
broken for some years, which is, as Dr. Schmidt just said, why 
you created the position that you did.
    I made a couple of notes here. Eric's comments about 
iterative development of software, I could not agree more. I 
used to be a software developer. Software is never done. But I 
would offer the following: Hardware development is done that 
same way. You build a little, try a little, test a little, find 
where it breaks, fix it, move on. When you have it working 
about like you like it, then it is time to write the 
requirements.
    In the Department, we have a fixed process where we write 
requirements and then develop capabilities. The way real 
engineers do it is you prototype hardware, develop 
capabilities, and then, based on those capabilities, now you 
write the requirements for the production system that you 
really want.
    So iteration in the hardware world is as important as it is 
in the software world. Let me stop there. We are in very high 
degree of alignment.
    The Chairman. Okay. Did you have something you wanted to 
add, Dr. Schmidt?
    Dr. Schmidt. I just wanted to add to Dr. Griffin's comment. 
So this requirements-driven process makes sense if you sort of 
hear it. It says, ``Hey, let us write down what we want. The 
Government will procure that. We will know what the budget is, 
and we will get what we want.''
    The problem is that it produces outcomes that are not 
learning outcomes. There is no new feedback system. And the 
cycles in development in the general procurement have been 
increasing up to, say, 10, 12, 15 years, which ultimately 
causes us to miss the mark in the first place.
    Secretary Griffin. But by the time you have the hardware, 
you no longer want it, because it is out of date.
    The Chairman. Let me just ask you each to address one other 
issue. It has been suggested to me that to have a, not only a 
culture, but an ecosystem that fosters innovation, an essential 
element is small to midsize businesses that are willing to 
disrupt things. And the suggestion that has been made to me is 
we make it too hard for these small, disruptive businesses to 
ever get into the DOD system. There is this program called SBIR 
[Small Business Innovation Research], whatever that stands for, 
which spends a lot of money, gets things started, but very 
little of it ever gets picked up in a program of record that 
goes on.
    So I would appreciate each of you commenting on whether, in 
the Department of Defense, we need to have these small 
disruptive businesses and how well we are doing at getting them 
and bringing them into the system.
    Secretary Griffin. I certainly agree that most of the 
disruption that occurs in our technology ecosystem comes from 
small and medium-size businesses of--you know, we see the ones 
that succeed, we do not see the many that fail. And then, 
ultimately, they may very well get bought if they are 
successful by larger contractors.
    I am not one to say that we do not need our large 
contractor industrial base. That is how we produce things at 
scale, but they are not largely the innovators that you seek. 
So I agree with your point there, sir.
    Part of the difficulty--and I further agree that we are in 
the Department, and in the government writ large, we are not 
user-friendly for small and medium-size firms, which quite 
often lack accounting systems that are compatible with DCAA, 
sorry, Defense Contracting Audit Agency and Defense Contracting 
Management Agency. It requires a lot of corporate overhead--and 
this time last year, I was running such a company. It requires 
a lot of corporate overhead to deal with what we do in 
government.
    Well, why do we do those things in government? We do them 
so that we in the executive branch can demonstrate that we can 
account for every penny. We go to so much trouble making sure 
that no misspending of money is possible that we actually 
create a larger mistake; we freeze out the innovators who maybe 
their accounting systems are not up to snuff, but their 
innovations are, and we leave those behind in an effort to make 
sure our systems are perfect.
    If we could find a way to do more dealing on a commercial 
transaction basis, where, as a commercial entity, you know, 
your accounting system is your problem. I am buying a quantity 
of things from you and my interest is to make sure that you 
deliver those things on time. If we had more focus on outcomes 
and less focus on process, I think we in the Department could 
do better.
    Dr. Schmidt. The Department of Defense has created two 
interesting groups. One is called DIUx [Defense Innovation Unit 
Experimental], and another one is called SCO, or Special 
Capabilities Office, both of which are central to solving this 
problem because they focus on the small disruptive businesses 
and try to use their tech to augment the larger systems.
    There are groups. An example would be SOFWERX, S-O-F-W-E-R-
X, and AFWERX, A-F-W-E-R-X, which are attempts to do that for 
the special operations forces as well as the Air Force. And the 
other services are now looking at this to address the question 
that you asked precisely.
    So we are very clear, most innovation is going to come from 
these small innovative companies, by definition, because that 
is how they differentiate themselves. All of them complain that 
the cost of compliance to the rules of procurement is 
overwhelmingly difficult. They do not have the money, they do 
not have the people and so forth, whereas the larger companies 
do.
    The Chairman. Have you had a chance, Dr. Schmidt, in your 
reviews to look at this SBIR program and how successful it is 
in getting small businesses into DOD mainstream?
    Dr. Schmidt. I am aware of it. We have not done a deep dive 
on SBIR. Everything that the DOD can do to encourage more 
choices in terms of innovation is a good thing, whether it is 
individual contracting.
    It is possible, for example, to hire small teams of 
software people who you cannot hire through the normal military 
process through special consulting arrangements. All of that 
should be tried.
    And I want to emphasize what Dr. Griffin said about this 
need to track every dollar. I will give you an example. I am 
sitting with a very senior four-star general and I said, in a 
very nice, polite way, ``you are a very powerful guy, why can 
you not get a team of 50 people in your huge budget to do the 
things you are complaining to me about?'' And he said, ``I did 
and they were taken away from me.'' And I said, ``you have got 
to be kidding.''
    So there is something in the system that is a scavenging 
function that is taking these small groups that are interesting 
and innovative and under the direct control of our most senior 
military leaders, and taking them away from them. That is not 
smart.
    The Chairman. Okay. A lot to go through, but Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I think it is discouraging when we hear also that, in 
fact, you were able to find two generals, I believe, who really 
got it, and yet we are not able to make that happen, I think, 
in other ways.
    So could you talk a little bit about, and, Dr. Schmidt, 
with your experience in the private sector obviously, there are 
a lot of ways in which we often have exchanges, bring people 
into the military, bring military into the private sector. Are 
we using every advantage that we have to do that? Have you seen 
ways in which we can do a far better job building that human 
capital so there is a real understanding of the role that one 
another plays? Because I think sometimes, you know, folks in 
the military may think, well, you know, they do not have to 
worry about the problems we have to worry about. And the same 
is true. How can we do that better?
    And I also would wonder how can we do that better when it 
comes to developing that human capital at a much--prior to 
people getting into the service, for that matter, that we can 
try to bring some of that thinking to bear?
    Dr. Schmidt. For this part of the military, I like to think 
of it as a very, very large corporation, with all the problems 
of a very large corporation, how do you hire people, how do you 
promote people and so forth.
    The Department of Defense has something called the Defense 
Digital Service, which is a good example, where patriotic men 
and women will take a year or two off of their current jobs. 
They get permission to do so, obviously. And they come in and 
they fix problems. The problem with the Defense Digital 
Service, which is very, very successful, is it is very small, 
20, 30, 40 people. We need 100, 200, 300. And given the way the 
government, in general, does software in particular, these 
kinds of programs are effective and I would encourage their 
expansion.
    Corporations are not going to willy-nilly hand over their 
top talent, but there is enough motion in the system where, 
again, patriotic people are willing to take a leave from work. 
And you can imagine programs with the private sector where they 
will even keep their salary as a patriotic act in order to do 
this as long as it is time limited.
    You emphasize in your opening comment the importance of 
STEM education. It is clear to me that the most important thing 
we can do to address the kinds of things I am talking about is 
more emphasis on STEM education of all kinds, at the community 
college level, college level, et cetera.
    Mrs. Davis. Mr. Griffin, I think these are all things that 
we think are good to do, and some of them, of course, are being 
done. We need to scale that more. But do you see--and I know 
you are in this position somewhat new under this rubric. Does 
it actually transfer when people have had those experiences?
    Are there things, just the requirements-based processes in 
the military, does that get in the way of people taking those 
good ideas and being able to deal with it, or will more people 
who understand this, in the end, be the difference between how 
we move forward in the future?
    Secretary Griffin. Well, there are a lot of----
    Mrs. Davis. What would you do?
    Secretary Griffin. A lot of questions going on.
    Mrs. Davis. Microphone.
    Secretary Griffin. There are a lot of important questions 
contained in that one question you asked. That is really quite 
broad.
    First of all, the individuals who come in for these 
experiences and then go on to other avenues of life, they do 
retain those. We get valuable transfer both ways. As Eric said 
earlier, we have got fantastic people in the government and 
laboratory networks, in my experience, as good as those who can 
be found in commercial industry. It is, as he said, the system 
in which they reside.
    Eric gave an example of a four-star who wanted to do 
something and the resources were taken away. Just a couple of 
weeks ago, I was having a conversation with another four-star, 
and we were commiserating on the swarming drone threat. And he 
said to me in almost a rhetorical conversation, ``Why can I not 
just have some money and buy some drones of my own and put my 
guys on the problem of figuring out how to develop a 
counterattack and let them try stuff out, break some drones, 
and find out an approach that works?''
    And I said--I will not offer his name. I said, ``General, I 
could not agree with you more, but, in fact, I am an Under 
Secretary and you are a four-star and neither one of us has the 
power to route money to you to allow your people to do what you 
just said.'' It is the system in which we are trapped.
    Now, in private industry--I once ran a GPS [Global 
Positioning System] company. If it had not been successful, I 
probably would not be here today. If I had to go through the 
kinds of permission loops to upgrade my receiver circuitry that 
we have to go through in the Department to catalyze and 
advance, I would not be here today. I would have been long out 
of business.
    It is the system in which our innovators are trapped. It is 
not the quality of the innovators or the innovations.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you all for being here. Dr. Griffin, as you know, I 
have a very high opinion of you for a long time, and I am very 
proud that you are in this position. I know it is going to be a 
credit to our country.
    This NDAA that we just completed gave you some pretty broad 
and sweeping powers, and I know you have only been in it for 2 
months now, but can you tell me how it is working?
    Secretary Griffin. Well, sir, in fact, I have been in it 2 
months today, 8 weeks today. And thank you for your kind 
comments.
    Actually, I have to say the broad and sweeping powers that 
the NDAA 2017 allocated to us are more broad and sweeping 
powers to offer advice. USD(R&E) [Under Secretary of Defense 
for Research and Engineering] does not really have much in the 
way of specific directive authority to control what is or is 
not done. So it is more the power to persuade. I hope I am an 
effective persuader.
    Mr. Rogers. I hope you are effective too.
    Conventional prompt strike hypersonic development needs to 
be accelerated. Can you tell me what your thoughts--and 
coordinated better. Can you tell me what your thoughts are 
about that?
    Secretary Griffin. You have hit my number one hot button, 
sir, as I think I may have mentioned that in my confirmation 
testimony a couple months back.
    I will say that, in my opinion today, the most significant 
advance by our adversaries has been the Chinese development of 
what is now today a pretty mature system for conventional 
prompt strike at multi-thousand kilometer ranges.
    We will, with today's defensive systems, not see these 
things coming, and they have an all-azimuth capability. They 
can come from any direction. We will not see them coming beyond 
several hundred kilometers of range; and once inside that range 
bucket, we have very little time left to respond.
    It is a tactical system that has strategic import for our 
Nation because it, if employed, could have the effect of 
limiting our ability to project power in the maritime domain. 
And as you well know, sir, you are the subcommittee chairman 
for Strategic Forces, I think you know how important our 
ability to sustain carrier battle groups and other maritime 
domain assets is to projection of U.S. strategic will 
throughout the world. And this capability is under threat 
today. We must respond with our own offensive capability, and 
we must, with all deliberate speed, develop defensive 
capability.
    Mr. Rogers. Excellent. And I know you will.
    Finally, directed energy is something I feel very strongly 
about us maturing as quickly as possible. You know, it has been 
5 years away forever. But, as you know, this technology is 
pretty mature, but it needs some more focus and attention.
    And one of the things that I am concerned about right now 
is that it is being developed in three different areas, three 
different programs, instead of being focused generally in 
Missile Defense Agency. Can you tell me what your thoughts are 
about why that development has been spread across three 
different programs?
    Secretary Griffin. I am not sufficiently knowledgeable of 
the history to know how we got where we are. And in business 
school, they teach us that some costs are irrelevant anyway.
    So my mission is to go forward and unify our directed 
energy development across the Department. That is what I want 
to do, because right behind the hypersonic threat, I am 
concerned that we are not leveraging our technical advantage in 
directed energy weapons. Within a few years, I want this Nation 
to have a, I will say, 100-kilowatt-class laser that can be 
deployed on a Stryker. I want us to have a several-hundred-
kilowatt directed energy capability that I can put on an Air 
Force tanker so that it can defend itself. By the latter part 
of the next decade, I want to have a megawatt-class device that 
can go in space and protect us against enemy strategic 
missiles.
    These things are within our grasp if we focus our efforts. 
They absolutely are within our grasp.
    Mr. Rogers. Well, I want what you just described, so get 
after it.
    Secretary Griffin. Please help me get it, sir.
    Mr. Rogers. I am with you. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, and good morning to 
our witnesses. I want to thank you for being here with the 
testimony. I think this is an important discussion that we are 
having.
    I have the privilege of serving as the ranking member of 
the Emerging Threats and Capabilities Subcommittee, so we have 
primary jurisdiction over all of the Department's cutting R&D 
[research and development] programs, including those at DARPA 
and ONR [Office of Naval Research]. And so the more we can do 
to cut out the red tape and accelerate these programs, I think 
the better off our Nation will be.
    Dr. Schmidt, let me start with you. Of the recommendations 
made to increase innovation in the Department, which is the 
most imperative, and has the recommendation been adopted--I am 
sorry, been adopted and actually seeing it come to fruition?
    Dr. Schmidt. Thank you very much. Many of the 
recommendations are in the internal reviews of the DOD. And the 
military has generally said they are going to implement as many 
of them as they can. The one that seems to have gotten the 
greatest traction right now is the proposal around an AI 
center. And we are specifically proposing that the nature of AI 
is a long-term technology that will be useful for defensive and 
perhaps offensive purposes as well. And so the creation of that 
is under review right now and I suspect will occur.
    We are also recommending, for example, that that be done in 
conjunction with a university of some kind or a couple of 
universities. So trying to make sure it is world class.
    Mr. Langevin. How do you feel innovation can be scaled?
    Dr. Schmidt. Well, this is what I have done my whole 
career. And you can systematize innovation by doing essentially 
reviews, quick decision cycles, and that. Remember that the 
biggest mistake is not starting something that does not work, 
it is continuing something that does not work. And so you want 
to fast fail. And, again, Dr. Griffin has emphasized this in 
his notes as well.
    So I would suggest that the government spend a fair amount 
of time doing reviews that are pretty rough. It is very 
difficult in the DOD to cancel anything, and yet the budgets 
are always fully allocated. So if you want to have room for 
innovation, you are going to have to stop doing a few things. 
And I am not talking about the big systems. I am talking about 
lots of other things that they are also doing.
    Mr. Langevin. Thank you. It is a good segue into my next 
question.
    Dr. Griffin, so any future conflict will undoubtedly 
include advanced technologies, like directed energy or 
hypersonics or railgun, and we recently had a conversation 
about these topics in my office and I thank you for the 
courtesy call. You came by.
    So it is not just because of us pursuing these 
capabilities, as you and I spoke about, our adversaries are 
clearly investing heavily in these areas as well.
    So do we need to be more aggressive in our pursuit of these 
capabilities? And how do you believe we can better promote a 
culture more accepting of failure in this pursuit within the 
Department of Defense?
    Secretary Griffin. Thank you, sir. The first thing that 
pops into my mind when you say how can we institute a culture 
that is more accepting of failure, from the heart, what I think 
we need to understand is that it is not failure to learn that 
something we tried did not work on the way to our major goal.
    If our goal--Chairman Rogers was asking me about directed 
energy weapons and I know you are interested in those as well. 
If my goal a decade from now is to give the United States 
dominance in missile defense in the world by means of having a 
megawatt-class laser, that is my goal. Failure is failure to 
reach that goal. It is not a failure to try out different 
approaches to reaching that goal and have them break along the 
way as long as I do not lose sight of my strategic goal that I 
am going to have a megawatt-class laser in 10 years.
    And breaking hardware along the way to that goal is not a 
failure. In fact, breaking hardware along the way to that end 
goal is often--and I am tempted to say always, but I am sure 
there are exceptions--breaking hardware along the way is often 
the quickest way to get to where you want to be.
    And so there is a cultural mindset here that in the course 
of trying to prevent small failures along the way to the grand 
goal, we miss the grand goal.
    Mr. Langevin. Thank you.
    Secretary Griffin. Thank you, sir.
    Mr. Langevin. As I mentioned, we in Congress, of course, 
have to work with--we want to be supportive of these innovative 
efforts. And as long as we are taking these journeys together 
and we have an open line of communication, when failure occurs, 
again, this is something that we can take these leaps together 
and understand where we want to get to and be supportive of 
your efforts.
    Thank you, and I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Griffin and Dr. Schmidt, thanks so much for joining us 
today. Dr. Griffin, you have spoken repeatedly about the role 
hypersonics will play in this era of great power competition 
between the United States, Russia, and China. And you also 
stated specifically that they are your highest priority.
    You went on to state, in your words, ``I am sorry for 
everybody out there who champions some other high priority, 
some technical thing; it is not that I disagree with those. But 
there has to be a first, and hypersonics is my first.''
    Other than funding, how do you transitionally get that 
redirection towards hypersonics, get us to the point where we 
are not only catching up, but surpassing our adversaries? So I 
wanted to get your perspective on that.
    Secretary Griffin. Thank you, sir. Let me add that I have a 
good-sized list of priorities that come to us out of the 
National Defense Strategy [NDS] that was released in January. I 
am not often a fan of government assessments, but this one was 
really well done. And that gives me my--it gives me my marching 
orders, if you will. And, of course, the NDS did call out 
hypersonics and, as you correctly point out, I have emphasized 
that.
    To be honest with you, this Nation's earlier research work 
in hypersonic systems development was basically what our 
adversaries have used to field their own systems. It is time 
for us to renew our emphasis on and funding of these areas in a 
coordinated way across the Department to develop systems which 
can be based on land for conventional prompt strike, can be 
based at sea, and later on, can be based on aircraft.
    We know how to do these things. This is a country that 
produced an atom bomb under the stress of wartime in 3 years 
from the day we decided to do it. This is a country that can do 
anything we need to do that physics allows. We just need to get 
on with it.
    Mr. Wittman. Very good. Thank you.
    Dr. Schmidt, let me pick your brain. In your role, you look 
at a lot of different opportunities. One of the opportunities 
that I think has evaded us to this point is how do we take 
needs within the Department of Defense and combine that with 
the innovation and creation that exists within the outside 
community and look at the conduit of venture capitalists who 
look to invest in those emerging technologies who normally have 
not been connected with DOD? How do we make that connection? 
How do we get those companies that have been innovated on the 
commercial side to say, ``Hey, there is an application of what 
we do and the attraction of capital to that to accelerate the 
development of those technologies?'' Give me your perspective 
about what we can do to better make that happen?
    Dr. Schmidt. So, unlike Silicon Valley companies, the DOD 
is extremely top-down. And so the NDS that Dr. Griffin 
mentioned is crucial here. It has roughly 10 big buckets, and 
the military is now trying to organize its activities into 
these buckets. And that is a crucial signal to the venture 
capital industry to say, work in this area.
    Then the next thing to tie in is the notion that there is a 
new approach to a problem, a faster this, a smarter that, and 
so forth, often software. And that is, I think, where the 
current lack of link is, that the people who are running those 
parts of the DOD are not technologists, they are generalists, 
and they do not have someone to say, ``Hey, you know, there is 
a new way to solve this problem and all you have to do is take 
a look at over here.''
    I have championed having various internal bake-offs and so 
forth. Dr. Griffin is central to this role and understands this 
role very well, as one of the people to bring this into the 
DOD. He will not be successful without the rest of the DOD 
being in alignment with these 10 broad areas and calling him 
and working with him, looking for these things.
    Mr. Wittman. Got you. Very good.
    Dr. Griffin and Dr. Schmidt, one final question. In this 
era of great power competition, we are not going to be where we 
were in the past, and that is to out-resource our opponents, 
whether it was what we did in World War II, or we did during 
the Cold War. Where we will prevail today is we must be able to 
do more per our unit of currency than our adversaries do per 
their unit of currency.
    Give me your perspective on how do we start down the path 
to be able to do that? And, Dr. Griffin, you spoke a little bit 
about this, about us being the creators and innovators, but how 
do we accelerate that to truly, in this era of great power 
competition, prevail?
    Secretary Griffin. Well, sir, as I tried to say earlier, we 
are not out of innovators, we are not out of innovations, we 
are out of time. And it is about pace. We must match the pace 
that our adversaries are demonstrating today.
    So a few weeks ago, I was fortunate to have some private 
time with the chairman, and he asked me, essentially, the 
question that you asked. And I often pop off with the wrong 
remark, but in this case, I said, ``Sir, we can either retain 
our national preeminence, or we can maintain our processes, but 
you cannot have both.'' Okay? We have got to thin out our 
process structure like weeds in your favorite garden, and 
nothing else actually matters. If we do not thin that out, 
nothing else is going to matter.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I want to explore that last question over here that Mr. 
Wittman asked a little bit more, because when we developed the 
atomic bomb, we sort of controlled that process. When we 
developed the space program, except for the Soviets--that is, 
the government controlled it. Developed the space program, the 
government controlled it. To catch up or to lead on AI, on 
quantum computing and machine learning, we don't control that. 
It has largely already been driven by the private sector.
    And so the fundamental question I have, is there a 
moneyball question here? That is, are we going to only be 
hitting singles and doubles, like the DDS [Defense Digital 
Service] or the SCO or DIUx, or do we get into an issue where 
or get to a place where we are hitting home runs? We are 
actually able to do a government investment into quantum 
computing, into AI, that is big enough to set the foundation? 
Otherwise, we are relying on the private sector to do that, and 
the private sector may not want that big investment from the 
government to help them leapfrog the foundational technologies.
    Secretary Griffin. Well, sir, the private sector will, and 
with the grace of God in this country, do what will do well for 
them. And they should, because that is----
    Mr. Larsen. I agree.
    Secretary Griffin. And that is the strength of our 
industrial base. So the question is, how we in the Department 
can take on some of the advances that they are making and put 
our money in on the tasks that we want done for us using these 
new technologies.
    So Dr. Schmidt, a few minutes ago, mentioned that one of 
the advantages of having, say, roughly 10 buckets of priority 
development, is that when venture capitalists can see the 
Department putting its money there, well, they will go and do 
likewise.
    So I think emphasizing AI, through an AI center and other 
things, we in the Department are not trying to build up AI to 
solve commercial problems. We are trying to build up AI to 
solve defense problems. And I believe that industry specialists 
in that area will be attracted to our challenges.
    Mr. Larsen. So what is the return on investment of that, 
Dr. Schmidt, in the private sector, for the private sector?
    Dr. Schmidt. Well, for the private sector----
    Mr. Larsen. You need your microphone on, please.
    Dr. Schmidt. I apologize. For the private sector, the 
investments that are being made in machine learning and AI and 
big data are fundamental to the future of those industries. So 
I can assure you that, broadly speaking----
    Mr. Larsen. The ROI [return on investment] for them is very 
clear. I am talking about the ROI for them to have the DOD 
either to invest in it, or for the DOD to be able to utilize 
that technology, which may or may not be proprietary.
    Dr. Schmidt. Well, historically, the DOD investment kick-
started many of the industries which I have been part of. You 
go back to the original work that DARPA did. And DARPA today 
is, for example, funding key investments in the areas that you 
are describing. So we benefit from fundamental research that 
the military funds.
    If it is a question of a military program, then it has to 
be looked at on a cost-benefit basis by that company. And, 
again, to the degree that the government can make it easier for 
that company to work with the government, that is a net 
benefit. But my answer to all of this is more, right?
    So an AI center, which we are proposing as part of my 
group, that is run by the DOD, benefits the private sector as 
well, because it puts more money into working on hard problems.
    Mr. Larsen. So my concern is less about any one military 
program. There are 1 million of them, and there will be 1 
million more. It is about the foundational technology 
investment, where, as a government, we do not control that like 
we did when we developed the atomic bomb or developed the space 
program. We were the first entry, the first in the market, if 
you will, but we are not the first in the market on AI, on 
quantum computing, the machine learning, and go down all this 
list that we are competing with with China and Russia.
    So I am trying to get past, or get through, talking about, 
you know, the DDS or the SCO, where we are borrowing people and 
we are borrowing technologies across services to utilize 
something new, and talking more about the foundational 
technologies that we have to invest in to be where you want to 
be, Dr. Griffin, in 5 years on directed energy and 10 years on 
directed energy and so on. Where do we want to be in 10 years 
on quantum computing in use by the DOD? Well, we do not seem to 
control that as much, because of a great innovative system that 
we have.
    And that is just a fundamental challenge I think that I 
would like to hear an answer to, a better answer to. My time is 
up. I apologize. Thanks.
    The Chairman. But if you want to make a comment.
    Dr. Schmidt. Well, again, I think that the relationship 
between the tech industry and research funding that has come 
over history from the government has been profound. I, as a 
graduate student, was on a DARPA grant and on a National 
Science Foundation grant.
    So the more basic research that you all, in aggregate, can 
fund across the sciences and so forth, it really does benefit 
the military mission. It really does benefit the defense of our 
Nation. It may be indirect, but the fact of the matter is that 
every conversation, pretty much every conversation we have had 
so far this morning started off with some form of government or 
National Science Foundation funding for the basic research that 
created it.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Griffin, I, again, respectfully want to bring up what 
the chairman brought up earlier. We received the testimony at 
9:20 this morning. That makes it difficult for us to do our 
job. And this seems to be becoming more commonplace from the 
DOD, that we do not get the testimony in a timely manner.
    You gave the example of the drones and the swarm of drones 
and being an Under Secretary, and that a four-star general that 
you were with, that neither one of you had the authority to do 
what both of you thought needed to be done with regard to the 
procurement and potentially war games with drones.
    My question gets back to, is that real or perceived that 
you do not have the authority? Show me the language that 
prohibits you from doing what you and the four-star want to do; 
and I think that you would find the committee willing to, in a 
bipartisan manner, remove that language from the law.
    Secretary Griffin. Sir, first of all, I again apologize for 
being late with the testimony and will endeavor to see that 
that does not happen again. The fault is mine, and I will 
remedy it.
    With regard to there is no language in the law specifically 
prohibiting me from doing what you suggested in the example I 
cited. There is no language that specifically gives either 
myself or this particular four-star the permission to do it. 
And absent the documented permission to do it, it is presumed 
that you cannot do it. And this is a cultural issue within the 
executive branch of the government writ large----
    Mr. Scott. Absolutely.
    Secretary Griffin [continuing]. Not just the DOD, sir.
    Mr. Scott. I agree, it is cultural. And if we as a 
government are going to take the position that our DOD and the 
people that run the DOD, both on the civilian side and the 
uniformed personnel side, have to have the express written 
permission of Congress to do anything, then we need to be 
learning other languages, because at some point somebody is 
going to conquer us.
    And my question then gets to, how do you break that 
culture? Because Congress does not prohibit you from doing what 
you and the general agree need to be done. It is a culture. It 
is a decision that is made inside the DOD to not do things that 
need to be done.
    Secretary Griffin. Well, yes, sir, but let me expand my 
answer just slightly more.
    Unless I can find something in authorized and appropriated 
language and funding which fits the category of this 
particular--say, response to swarming drones, unless I can find 
money which is appropriated for that purpose and authorized for 
that purpose, I do not have a documentable, if you will, chain 
of permission going to the very top of the government that 
allows me to do these things.
    And so, absent that clear succession path for the use of 
money, by definition, I am using it inappropriately. And----
    Mr. Scott. I am almost out of time. If I could, though, I 
mean, the pistol example with the Army. The Army took 10 years 
to buy a new pistol. And, now, fortunately, they had a pistol 
that worked while they were taking the 10 years to do it. But 
when you ask the Army, ``why did it take 10 years?'' they 
cannot answer the question.
    It is a bureaucracy that is built upon a bureaucracy, and 
there is a lot of blame that goes around. We all know what the 
problems are. We need to know how to eliminate those problems 
and remove those problems.
    Dr. Schmidt, one of my concerns, as we work on these 
issues, is--and I know you are very tuned into the private 
sector and compensation in the private sector--whether or not 
it will be uniformed personnel or civilian personnel that are 
actually the best solution for us in the programming aspect of 
things.
    But even in the civilian personnel, a GS-7's starting pay 
is $35,000 a year. That is for somebody with a college degree. 
How do we compete with those pay scales? And what are your 
thoughts on uniformed versus civilian personnel in the 
programming fields?
    Dr. Schmidt. We are fortunate that a number of people are 
willing to work for very low wages out of patriotic duty to 
solve these problems. And they will do so until they feel that 
their ideas and innovative ideas are ignored by their bosses, 
and then they leave--and I have encountered many such people--
to go to much higher-paying opportunities in the private 
sector.
    If we want do this long term, we have to have softer 
budgets that can be sent through softer contractors, where the 
contractors are being paid market wages. And that is legally 
achievable; it is just not done as practice. And you all have 
already given permission for this to happen.
    Mr. Scott. Thank you, gentlemen.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Dr. Griffin and Dr. Schmidt, I have the honor of 
representing a number of universities in my district, including 
UC Santa Barbara and Cal Poly, San Luis Obispo. Both of these 
institutions participate in a number of research opportunities 
offered by the Department of Defense. The experience has not 
only been rewarding for DOD, as they enhance their 
technological edge, but also for the students, as these 
partnerships allow students to pursue advanced research and 
directly impact the security of our Nation.
    I believe it is critical for DOD and Congress to expand 
these DOD-academia partnerships as part of DOD's efforts to 
foster and promote a culture of innovation.
    Secretary Griffin and Dr. Schmidt, how important are these 
DOD-academia partnerships in enhancing innovation? Are there 
are any new initiatives within DOD to expand and create more 
partnerships such as DOD educational partnership agreements and 
university affiliated research centers?
    Secretary Griffin. To the last part of your question, sir, 
I do not at this point know if we have any new partnerships 
planned or what those plans might be. I will be happy to look 
into that.
    With regard to history, however, I, myself, spent 11 years 
in DOD and NASA FFRDCs and UARCs. I am the strongest possible 
believer in the value of these laboratories and centers and 
such, where the U.S. Government partners with a university to 
bring a technology development focus on a particular area.
    So, for example, with NASA and JPL [Jet Propulsion 
Laboratory]--and, of course, the DOD has a lot of interest in 
JPL as well--we hire Caltech to run JPL for the benefit of the 
government and the taxpayers. It has been an extraordinarily 
productive thing to do. I could repeat that same story with 
regard to the Johns Hopkins Applied Physics Laboratory or Los 
Alamos or many others.
    This is what got us where we are. And one of my goals is to 
make sure that those partnerships are strengthened and 
reaffirmed into the future.
    Dr. Schmidt. One of the best ways to address some of the 
shortfalls in innovation is to work more with America's leading 
universities, which are top of class globally. And the more we 
can do that, the better.
    I should highlight that UC Santa Barbara is a center of 
extraordinary progress on quantum computing, and some of the 
major breakthroughs in quantum computing appear to be coming 
through the research done there in the physics department.
    Mr. Carbajal. Thank you both.
    Mr. Chair, I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    In a full committee hearing last week, General Alexander, 
who, as you know, is the former commander of U.S. Cyber 
Command, stated, quote, ``The leader in artificial intelligence 
and quantum will be the next world superpower.''
    I am deeply concerned that we must be able to keep pace 
with near-peer adversaries like China when it comes to their 
investment in AI. As you stated, Dr. Schmidt, in your opening 
statement, China has publicly stated their goal to be the 
global leader when it comes to AI by 2030. That is not very far 
away.
    What specific steps do we need to take within the DOD, in 
addition to research and development, to ensure that we are 
able to keep pace and surpass near-peer adversaries?
    And, Mr. Griffin, if you can specifically talk about what 
we are currently doing within DOD regarding AI.
    Dr. Schmidt. As we discussed earlier for Dr. Griffin, 
hypersonics was his first of a number of firsts. For me, the AI 
questions are first among a number of firsts.
    And, in order to do AI, you need to have data for training. 
And the DOD, broadly speaking, has a great deal of data which 
is not stored anywhere or stored in places which, you know, the 
programmers are no longer alive kind of thing. And getting all 
that data in a place that is usable and discoverable and useful 
for the mission at hand is crucial.
    We have already highlighted the importance of having some 
form of AI center, again, from my perspective, preferable if it 
is done in conjunction with some universities, to take the work 
at the state of the art.
    The third is that the majority of the contractors that are 
used by the DOD are not AI-capable at this moment, although 
they are all working on it. So, again, I would encourage the 
specification, and the current process, which is essentially a 
requirements document, needs to actually state what problem 
they want to solve.
    A typical example would be, you are worried about a 
swarming drone problem with autonomy, right? That is a good 
example of an AI problem. Where is the research? Where are the 
tools? Where are the drones? Where are the counter-drones? All 
of those kinds of questions need to be asked, but they need to 
be asked in the context that causes the data to be stored and 
the algorithms to be invented and funded.
    Secretary Griffin. The Defense Innovation Board has 
recommended and Dr. Schmidt has emphasized the need for an AI 
center. I believe, in his hearing recently, the Secretary 
affirmed that the DOD will establish an AI center.
    So that, I believe, comes under my area, and we are 
looking, right now as we speak, about things like how do we 
structure it, who should lead it, where it should be, how we 
should structure our other departmental research to focus in 
through that. So these are ongoing questions that we are 
addressing this week.
    Currently, I was briefed recently and told--I cannot verify 
the number, but I was told that we have 592 separate AI-related 
projects across the Department. We need to bring some focus to 
all of that, and I think that is what you are getting at, 
ma'am.
    Ms. Stefanik. To follow up, Dr. Schmidt, some of the 
technology companies we have talked with, and particularly 
those that are contributing in the areas of AI, have expressed 
a reluctance to work with DOD.
    And I know you are not here today in your capacity with 
Google, but you are familiar with some of the news articles 
related to the workforce's questioning and concerns regarding 
DOD's Project Maven.
    How do we overcome this skepticism? Because I think this 
private-sector workforce is critically important, to be able to 
leverage their innovations, when it comes to what DOD is doing 
in AI specifically.
    Dr. Schmidt. So, because of my role in both organizations, 
I have been deliberately kept out of the particulars here, so I 
honestly cannot answer the Maven questions at all. I honestly 
do not know.
    My sense of the industry--the answer to your question at 
the industry level--is that the industry is going to come to 
some set of agreement on AI, what are called, principles--what 
is appropriate use, what is not. And my guess is that there 
will be some kind of consensus among key industry players on 
that.
    And then that process, which will take a little while, will 
probably then inform how Dr. Griffin and his teams, you know, 
leverage, work with, work against, what have you. I think it is 
a matter of speculation, but my guess is that is the path.
    Ms. Stefanik. Thank you.
    My time is about to expire.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and, obviously, your 
preparation as well as your testimony.
    Playing off Representative Carbajal's question, he talked 
about outside universities. What about internal universities, 
defense-related universities, Naval Postgraduate School for 
example? Are they contributing to this innovation so, instead 
of having a top-down, we are basically from the bottom up, from 
people within the Department of Defense?
    Dr. Schmidt. So one of the goals for the Naval Postgraduate 
School by the Navy is, because of its location and storied 
history of training top leaders in the Navy, to have it serve 
as an innovation hub and, in particular, have business contacts 
with the venture community and so forth. That is an objective 
that they have, and we certainly support that.
    In general, the educational systems within the military, as 
a broad statement, could be improved by working with and 
sharing abilities with the traditional public-sector 
universities, et cetera. In other words, a university that is 
sort of private and isolated does not serve the military well. 
A university or a training program or an open innovation 
program that is linked to the educational systems of America 
serves both sides.
    Secretary Griffin. I mean, I would agree. I am very 
familiar with the Postgraduate School and somewhat familiar 
with Air Force Institute of Technology, for example. And, while 
they are quite good at very specific things, the more that they 
can be linked with their academic cousins outside the 
Department, the more that they become--I do not mean this in 
any disparaging way--the more that they become just another 
university that happens to have ownership in the DOD, the 
better we are going to do.
    Because I think there is just no argument that, taken in 
total, the American system of higher education is the world's 
best. And, yes, it has faults and it has problems and problems 
that we need to solve, but, taken globally, it is the best. And 
we ought to try to promulgate that as much as we can. We ought 
to try to use it as much as we can, support it as much as we 
can, and let it run free, because it has done well for us.
    Dr. Schmidt. May I add something?
    Mr. Panetta. Please.
    Dr. Schmidt. The challenge that we face in the government 
and the military is a much deeper training and education 
problem than it initially appears. Because many of the 
doctrinal approaches, right, are being torn asunder, right, 
they are literally being turned on top of each other, by 
changes in adversarial posture or technology. So an agile, 
innovative leadership team is a very different training program 
than the kind of leadership we are training today.
    And so think about it--just simple things like there is 
something called the Acquisition University, where people learn 
how to do acquisition. Well, that all has to change based on 
what Mike has outlined here. There are thousands of people who 
go through these systems.
    So it is a much deeper tautological question than it might 
initially appear. Your question is exactly right.
    Mr. Panetta. Thank you, gentlemen.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And thank you, Dr. Griffin and Dr. Schmidt, for being here 
and providing your testimony.
    You have given some good updates on hypersonics, artificial 
intelligence, quantum computing. There are some other areas 
that also I think in the next 20, or 30, or 40 years we will 
see weapons technology migrate to. One of them is 
miniaturization of weapons.
    Can you give us an update on how we are doing in that area? 
Are we seeing progress? For example, I think eventually we will 
see remote-piloted aircraft that will be very small that could 
be used for ISR [intelligence, surveillance, and 
reconnaissance] or for kinetic operations. But do you have any 
updates in the miniaturization efforts?
    Secretary Griffin. Well, I do not know that I have any 
specific updates, sir. There are a number of areas where, as 
you indicate, there is a driver to miniaturize. And when you 
have that technological driver, you will generally get results.
    Today, for example--I started in missile defense when the 
best and first interceptor we could build weighed a ton. And I 
do not say that as an exaggeration. It literally weighed 1 ton. 
The missile defenses that we have at Fort Greely and Vandenberg 
today, ground-based defenses, the interceptors weigh a couple 
hundred kilograms.
    Can we make them smaller and lighter? Yes. And we will, 
because our next advance will be the Multi-Object Kill Vehicle, 
where one bus can support several smaller interceptors. As you 
point out, unmanned aerial vehicles are following this path. 
Not everything needs to be Global Hawk, as wonderful as Global 
Hawk is.
    When we are challenged to advance our technology because of 
adversarial postures, we will do that. What this hearing is as 
much about as anything else today is reforming our processes--
--
    Mr. Bacon. Right.
    Secretary Griffin [continuing]. To allow those innovations 
to come forward in a timely way. I think both Dr. Schmidt and 
I--that has been our central theme.
    Mr. Bacon. Dr. Schmidt, anything else to add?
    Dr. Schmidt. No. I agree with Dr. Griffin.
    Mr. Bacon. Uh-huh.
    Another area that I read about is robotic-type warfare or 
the use of robots more. And I have heard that Russia has put a 
lot more emphasis on that than we are. Do you have any other 
feedback on that area?
    Secretary Griffin. Sir, I am unable to address that 
question. I do not know the Russian posture in robotics, and I 
am really only cursorily familiar with our own.
    Mr. Bacon. Okay. Thank you.
    Secretary Griffin. I am sorry.
    Mr. Bacon. One last question. On the F-35 front, we have 
had a lot of experience with that, obviously. Again, some good 
progress now, but also we have had some tough times. What have 
we learned out of the F-35 that you can apply?
    Secretary Griffin. Well, F-35 comes under my counterpart, 
Ms. Lord, for acquisition and sustainment. I would broadly 
observe--so I will be very careful in my remarks, and they will 
be very top-level, because it is not my program.
    But I would observe that a program which has been in work 
for over two decades and now performing well, but in work for 
over two decades, is, frankly, late to need. It almost 
automatically cannot be said to keep pace with the threat.
    I think that it is well known, at least on the inside, that 
the software architecture is not one that would have been 
developed, say, by our leading IT [information technology] 
providers. It is not the kind of software architecture that a 
Google or an Apple or a Microsoft or a Cisco would have 
provided.
    So there are a number of systemic issues there that I hope 
will be lessons learned for the next spin. And I think it would 
be better for me to stop there.
    Mr. Bacon. Hopefully we just keep learning with each 
program like this. That is what we do.
    Dr. Schmidt, anything else to add?
    Dr. Schmidt. I think that Dr. Griffin's comments reflect 
the fact that you think of the F-35 and these other programs as 
hardware programs, but they really are software programs with 
hardware attached.
    And so, if you thought about it as a software project and 
had designed the software in such a way, the kind that I am 
describing, and as done in the industry, you would have a very 
different outcome today. And that is at the root of the design, 
procurement, and operational methodology for these large 
systems.
    So think of it as, let us get the software right in the 
future, and then we will figure out what airplane to build 
around that or what airborne device to build around it. That is 
a much better approach going forward.
    Mr. Bacon. Okay. Thank you, gentlemen.
    And, Mr. Chairman, I yield back.
    The Chairman. Mr. Carbajal--I am sorry. Mr. Gallego. I have 
to go to the next one on the list.
    Mr. Gallego. All of these Marines are the same, are they 
not? Thank you, Mr. Chair.
    You know, we are actually very proud in Arizona to have a 
Cyber Warfare Range. And it is an incubator to train the future 
cyber warriors. And it is, you know, a great place. It is a 
nonprofit. By design, it is a nonprofit, not government-run. 
And that is something that I think has made it be fairly 
flexible in both creating its curriculum and also in terms of 
outputs.
    But, you know, if it was a government program, it is my 
opinion and, I think, the opinion of many people that it would 
be a little slow in terms of its being able to change and adapt 
to environments, change the curriculum, be able to retain and 
attract students. And, you know, in this environment, we need 
the cyber warriors to come out as fast as possible, as strong 
as possible, as smart as possible, and as trained as possible.
    What can we do to encourage that type of environment, 
especially, kind of, from top down in this stuffy world that we 
deal with when it comes to, you know, DOD policy versus what we 
need, you know, what I would say is a very aggressive cyber 
warrior and cyber warfare policy?
    And we will start with you, Dr. Schmidt.
    Dr. Schmidt. So the great thing about cyber warriors is 
that, relative to the other things we are talking about in the 
military, they are very inexpensive. The salaries are 
relatively low. You do not need that many. They are brilliant 
people.
    And I am beside myself over why we do not have a surplus of 
such people. We have such a shortage. They are the cheapest and 
highest, most effective part of our defensive systems. And I 
think it is because we do not have a name for them. As Mike 
said, he does not have a line item for doing what you just 
described.
    So you could imagine that, as a part of a future NDAA, you 
could say, we would like to have a thousand of this kind of 
person, under the command of the Secretary, doing useful 
things. Right?
    And I think that the only way you will get that is by doing 
some form of numeric quota around the people. In the same sense 
that we argue over the number of airplanes and ships and so 
forth, why do we not simply say, we need this many people, and 
then the system will produce the top people into that.
    Mr. Gallego. And, Dr. Schmidt--before we get to you, Mr. 
Griffin--I am sorry to put you on the spot, but just out of 
curiosity, since you brought it up, if you had to even pinpoint 
a number, just a guess out of the blue--or, do not guess, but 
your best educated guess at least--what is the amount of cyber 
warriors we would need in this country?
    Dr. Schmidt. Well, the general answer in my industry----
    Mr. Gallego. Not enough.
    Mr. Schmidt [continuing]. Is a thousand.
    Mr. Gallego. A thousand. Okay. Wow.
    Dr. Schmidt. And in the military it is probably a small 
number of multiples of that.
    Mr. Gallego. Wow. That is amazing. Okay.
    Mr. Griffin.
    Secretary Griffin. Well, I would just offer a couple of 
comments in addition to those that Eric provided.
    Cyber defense is, of course, critically important to the 
Department, but I am going to go out on a limb and say that it 
is even more important to those who guard our economic systems 
of banking and financial industry and all of that. And so the 
Department is looking toward bringing in--we have a new CIO 
[Chief Information Officer] who will be coming in from the 
financial industry. I think we need to do everything we can to 
tap into people who are, if you will, playing for their own 
money in this arena. And we are doing that.
    Eric mentioned, you know, my comment that, well, unless I 
have an appropriated and authorized line item, I cannot spend 
money on something. If you want to emphasize cybersecurity, 
both offensive and defensive--and it is one of my priorities--
since we all agree that we do not really know very much about 
what we are doing in this area, when you give us the 
authorization to hire these thousand people, you cannot be too 
specific about what I have to do with them, because I do not 
know right now. You have to have a little bit of trust in us to 
use the money----
    Mr. Gallego. Right.
    Secretary Griffin [continuing]. As the need evolves. 
Because we hope to learn more about cyber defense and offense 
to produce an adequate cyber warfare capability, but I cannot 
sit here and tell you right now that I or anyone else we have 
knows exactly what that should look like.
    Mr. Gallego. So the cultural change, then, both has to be 
on the DOD side as well as, what you are basically asking, on 
the political side, in terms of how we appropriate money and 
legislate money then. At least give the flexibility to be able 
to do that and basically allow people to fail, like they 
normally do in the private sector.
    Dr. Schmidt. Let me help Mike out.
    Mr. Gallego. And do that in 10 seconds. Go.
    Dr. Schmidt. He described precisely the problem. He wants 
to do something; he cannot find a budget item which allow him 
to find the money to legally spend it. And the problem is we 
have the Armed Services Committee, we have the appropriators, 
and then we have the internal budgeting processes within the 
DOD, all of whom organize to make sure that there is no wasted 
individual.
    Well, we cannot precisely define what these people are 
going to do, but we know we need them. And they are not 
expensive compared to the other things that we should be 
focusing on.
    So there are certainly things that you all should be 
focused on that are the big-ticket items, but I would strongly 
encourage you to have a small number of buckets which somebody 
like yourself is taking a look at, where you say, hey, let them 
try it, let them experiment. And whether it is hiring people or 
money that goes to universities, these are honorable people 
that are trying to do the right thing.
    Mr. Gallego. Thank you, Mr. Chair. I yield back.
    The Chairman. Just so I can clarify, because--so, are you 
talking about X number of people in your organization, Dr. 
Griffin, who you could use as a task force to go do this, that, 
or the other thing? Because we have this whole Cyber Command 
that does a whole variety of things, and we have been pouring 
money and people into that.
    Secretary Griffin. Generally speaking, sir, when I talk 
about deploying people to a problem, I am not talking about 
necessarily DOD civilians or military officers. There may very 
well be some of those or even many of those.
    But I am really talking about the necessity to engage our 
laboratories, to engage our universities, to the flexibility to 
stand up a cell in the Department if we feel that we need to, 
or the flexibility to put work where we think it can best be 
done.
    But, no, I am not talking about going out and hiring 
thousands of civil servants. That is not my primary goal.
    The Chairman. And I am just sitting here trying to think, 
okay, how do we write something that gives this sort of 
flexibility as a trial? Because it will be a challenge for the 
appropriators to agree to the broad flexibility. I am trying to 
narrow it down, say, a pilot or something.
    Dr. Schmidt. So, again, with sympathy to the problem you 
are trying to solve, I can imagine you saying, here is a pot of 
money, which is not a large amount relative to the amount that 
you normally deal with, and that you reserve the right to 
review how it has been spent every 6 months or so and that you 
are open to how it be spent. Right? In other words, we are 
going to trust the other side, but we are going to inspect. You 
go back to ``trust, but verify.'' I think that is a completely 
appropriate view that you should take.
    The problem is that you do that, and then, for the next 6 
months, many other people are saying yes and no, rather than 
letting people come up with some new ideas, experiment, come up 
with some new ideas. And then, at the end of day, the next 6 
months, you would say, we got some good things and we made some 
mistakes. And, again, Mike or his equivalent will come back and 
say, we want to be honest with you, this worked, this did not, 
and we are going to emphasize the things that worked, and we 
are going to stop the things that did not.
    That is how innovation works in my industry.
    The Chairman. Well, it is absolutely a fair point to say we 
are part of the problem by complaining when things do not work. 
And I think that is one of the lessons, at least, that I have 
learned in recent years.
    I apologize for interrupting.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman.
    Thank you to our witnesses.
    Dr. Griffin, could you talk specifically, if hypersonics is 
our number one priority here, what are the main obstacles you 
see to a much more efficient, effective development of that 
technology? What are we doing about those obstacles?
    And address, as you are doing that, whether or not our 
obligations--or, an interpretation of our obligations under the 
INF [Intermediate-Range Nuclear Forces] Treaty are having an 
impact on the research we are doing on hypersonics.
    Secretary Griffin. Let me take the last part of your 
question first, if I might, ma'am.
    The INF Treaty, I think, does not hinder our ability to do 
research. It would color--the logical question is, why would 
you do research on systems which are capable of violating the 
INF Treaty? And my answer to that would have to be that our 
adversaries are already in violation, so I am not quite sure 
why we are observing the rules of a game that our adversaries 
have abdicated. I----
    Ms. Cheney. But would you say that we are observing the 
rules of the game with respect to----
    Secretary Griffin. So far, yes, ma'am, we have been. And I 
think that is a question for the Congress to deal with.
    Now, with regard to systems that we can develop and how we 
can speed things up, we are on a test cycle where every few 
years we do an advanced hypersonic weapons experiment. We just 
did one with the Navy's Flight Experiment 1. FE-1 it is called. 
It was a brilliant success. I cannot praise them enough for how 
well they have done.
    So, as the new Under Secretary for R&E, the question I am 
asking the Navy is, how soon can I have FE-2? And why are we 
talking about, you know, 18 months or 2 years or 2\1/2\ years? 
Why is it not August? That kind of pace of development as we 
work our way through the system problems to produce a 
realizable, operational system--we need to emphasize 
development pace.
    These guys are doing great work. I do not have any 
suggestions to them to improve their work. I want it tomorrow. 
And I want to know from them, what is your impediment to 
delivering the next test next August, so I can help you get 
that impediment out of the way.
    Ms. Cheney. And do you have a sense already of what some of 
those impediments are?
    Secretary Griffin. No, ma'am, other than what we have 
talked about here: our general culture of process, risk-
avoidance, fear of failure. How many times do I have to analyze 
the system to be as sure as I can be that, when I do a test, it 
will not break, as opposed to a cultural mindset that says my 
greatest enemy is time, my greatest enemy is not breaking a 
piece of hardware.
    I must add, ma'am, that I am often--every time I talk about 
regaining the kind of pace and speed that we used to be known 
for, people think I am talking about cutting out system 
engineering or testing or things like that. No, I am not. What 
I want to cut out is layers of bureaucratic decision making, 
where way too many people think that their opinion matters in 
the decision process.
    I do not want to cut out engineering tests. I want to cut 
out the number of people who think they have a right to an 
opinion. Because that is how we are going to shorten the 
process. And if that sounds cruel, I am sorry, but that is what 
needs to go.
    Ms. Cheney. And do you have a sense, Dr. Griffin, that you 
have a willing audience in terms of the leadership of the 
Department? How will the process work from here in terms of 
making this kind of change that is a difficult one because it 
is a cultural change but, as you said, our greatest enemy is 
time?
    Secretary Griffin. I believe strongly that I have the 
unequivocal support of both the Deputy Secretary, whose 
experience in industry I much admire, and the Secretary, whose 
thought leadership in these areas is unparalleled. I cannot 
recall a better team.
    Ms. Cheney. And then, Dr. Schmidt, when you find a problem 
like, you know, the scavenger function you talked about, what 
is the system that is in place for you to be able to say, look, 
here is a problem, here is how we need to fix the overall 
process to address that?
    Dr. Schmidt. So, by law, my group is called a FACA [Federal 
Advisory Committee Act] committee, so we are not allowed, by 
law, to implement anything. We are required to hold public 
hearings so we discuss it in public, and then we obviously want 
to speak to you. We have very good working relationships with 
the senior leadership in the DOD, who are listening to us. But 
we cannot cross the implementation line.
    Ms. Cheney. All right. Thank you. My time has expired.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Can I just clarify, Dr. Griffin, for a second--because I 
think you mentioned that people want to be heard. And they do. 
They believe their opinion is important. But there is also fear 
of accountability there, fear of, if I do not do this right, if 
I do not cross the t's, dot the i's--I mean, how can you smooth 
that process, which is, you know, we have to check all these 
boxes in order for me to be able to move this along? Is that 
something that can be done, can be changed?
    Secretary Griffin. Well, ma'am----
    Mrs. Davis. How is it done?
    Secretary Griffin [continuing]. It can be done. We are, 
first of all, a sovereign nation, and the Department operates 
within that. We Americans make our own rules.
    Mrs. Davis. Right.
    Secretary Griffin. So it is my best professional judgment 
that I can give you that, as regards engineering development, 
we have too many boxes to check.
    Mrs. Davis. Yeah.
    Secretary Griffin. If we do not reduce the box checking, 
then we are never going to change the time.
    Now, most of my career has been in government service one 
way or another, through laboratories and such, but I have about 
a decade, rounding off, in industry. And I can only tell you 
that there is a fundamentally different mindset. When you are 
in commercial industry, you are responsible for outcome. You 
are not responsible for process. Companies that become too 
bound up in process fail, and others win.
    If we cannot in government--not just the Department of 
Defense--if we cannot in government become more focused on 
producing the outcomes we seek----
    Mrs. Davis. Solving the problem.
    Secretary Griffin. Right, solving the actual problem, as 
opposed to proving that you went through the required process 
on your way to the failure, if we cannot change that mindset, 
then whichever member said earlier we had better learn to speak 
another language, I guess I am with him.
    Mrs. Davis. Yeah.
    Dr. Schmidt.
    Dr. Schmidt. I have never seen it work any other way, that 
you get a group of people in a room with a whiteboard, or a 
blackboard in the old days, and you have a big food fight, and 
you balance all the various interests to achieve a clear 
outcome. That is how development is done. That is how it is 
done, slowly and quickly and with a sense of pressure and with 
creativity.
    The military does not operate that way. That kind of 
behavior is in some cases illegal and is certainly frowned upon 
culturally. Indeed, what happens is there is a requirements 
process, and then there is a bidding process, and then there is 
a winner and a loser and a challenge, and then people are 
checking boxes and so forth. This is guaranteed to slow 
everything down. It is predictable that it would slow it down.
    All you would have to do would be to allow the meeting that 
I am describing to occur. That is how innovation works.
    When I talk to the military, they talk about what they view 
as a golden era, which, roughly speaking, think of it as the 
skunkworks period, where you would have--they describe a world, 
perhaps apocryphal, where in the 1970s you would have this 
plant and these people, and you would try this airplane and you 
would try that airplane, and this one crashed and this one 
worked, and they kept iterating very quickly.
    That should be the mantra. And if that is not happening, 
there better be a good reason why we cannot develop in that 
model. And it seems to have been lost today.
    Mrs. Davis. Uh-huh. So we have to try and fix it, Mr. 
Chairman.
    The Chairman. You are right.
    Mrs. Murphy.
    Mrs. Murphy. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony today.
    I represent a district in Central Florida that is home to 
what is called Team Orlando. It is a public-private partnership 
from modeling, simulation, and training [MS&T] that is co-
located with the University of Central Florida, which is the 
second-largest university in the country and a major R&D 
institution.
    Additionally, a key part of that ecosystem are a lot of 
these small businesses that are drivers of innovation in the 
MS&T and cyber industry. What I hear from them all the time is 
how hard it is to survive the long contracting lead time, not 
to mention CRs [continuing resolutions] and the impacts of 
those.
    Recently, the Army just stood up a consortium called the 
Training and Readiness Accelerator, where we affectionately 
call it TReX, and it basically uses a flexible, alternative 
contract instrument called OTAs, or other transactional 
authorities, to field innovative research and prototypes. And 
they are trying to focus those fielding prototypes in areas 
where we need the most innovation--cyber training, artificial 
intelligence, medical modeling and simulation, those types of 
things.
    Can you talk a little bit about how you think the 
Department of Defense should utilize OTAs and other 
unconventional acquisition methods to jump-start innovation? 
And, then, how can we ensure that these contract instruments 
are used to their greatest effect and managed properly?
    Dr. Schmidt. So these OTAs have been around for a long 
time, and, indeed, the Congress has recently increased the 
number of OTAs. And yet the system that you are giving the OTAs 
is not using them very much compared to the opportunity before 
them.
    So our team has recommended that, in fact, the military 
measure the use of OTAs and encourage the use in a measurement 
sense. If you set an objective, like if we are doing them a 
thousand times it needs to be doubled, I think that would make 
some progress to achieve the objective you laid out, which we 
agree with.
    Mrs. Murphy. Uh-huh.
    Secretary Griffin. Well, I certainly agree with all that. 
As to how they can be managed properly, I know of no better 
approach than to hire people that you trust to carry out a 
given development, put them in charge, and hold them 
accountable for the result. The whole purpose of an OTA is to 
reduce the box checking that Ranking Member Davis commented on 
earlier.
    Mrs. Murphy. Uh-huh.
    Secretary Griffin. So, again, measuring--the Congress gave 
us, the Department, enhanced permission to use OTAs. I think 
you should require us to use them and measure us on that.
    Let me, however, add a parenthetical comment. The whole 
purpose of an OTA is to get around the system. Maybe we should 
just fix the system. I will leave you with that.
    Mrs. Murphy. Do you think there is a personnel element to 
why the OTAs are not being used to the full potential?
    Dr. Schmidt. So, again, I would go back to this 
psychological problem, that the psychology of risk is set--the 
bid is set to ``wrong.'' People should be promoted because they 
took risks. People should be promoted because they took risks, 
some of which failed, but enough of them won that the cause of 
whatever they care about was advanced greatly, right? And that 
is not in the language, in the military, in the HR [human 
resources] policies today.
    Mrs. Murphy. Uh-huh.
    On another contracting personnel issue, you know, earlier 
this year, my colleagues and I were briefed on the F-35's 
continued sustainment problems, which are accumulating at such 
a rapid pace that the Air Force may be forced to reduce their 
plan by a third if sustainment costs do not fall significantly.
    One of key issues that was highlighted in the F-35 
sustainment report was a severe quality difference between 
industry contracting experts and those in the DOD that led to a 
contract that the Department still does not quite understand.
    How can the Department of Defense develop the contracting 
experts necessary to negotiate better with the industry? And 
how important is this expertise in the future of U.S. defense 
innovation?
    Secretary Griffin. Well, Ms. Murphy, as I mentioned 
earlier, I do not have F-35 under me and have really very 
little knowledge of the program, so I----
    Mrs. Murphy. But I think this disparity is not just unique 
to the F-35. Could you speak about it more broadly, the 
disparity between the quality of contracting experts on the 
other side of the negotiating table from our DOD contracting?
    Secretary Griffin. I can only say that industry has a lot 
more money that they are allowed to spend on hiring lawyers and 
contracting officers than does the DOD. And it will always be a 
challenge for us to get people willing to work for civil 
service wages to go up against their corporate counterparts.
    Eric mentioned earlier--and it is true--there are many, 
many, many very patriotic individuals who will take a salary 
cut to a small--that is, in effect, a small percentage of what 
they could earn in industry and come to work on behalf of the 
taxpayer to help retain the greatness that we have in this 
country. But not everyone will, and it is a difficult 
challenge. I cannot say more than that. It is a very difficult 
challenge.
    Mrs. Murphy. Great. Thank you.
    And my time has expired. Thank you.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    We talked a lot today about increasing speed, as far as 
innovation. And one of things that you had said, if I heard you 
correctly, is one of the problems and challenges that we face 
is that so much technology is available to everybody; it is not 
really just ours.
    And, to me, that is part of the problem that we face, 
whether it is intellectual property that is stolen, whether it 
is intellectual property that happens to be shared, whether it 
is property that comes from the commercial side rather than out 
of, say, the Department of Defense or wherever.
    So those are some of the challenges we face. So increasing 
speed, I guess that helps, but it does not help a whole lot if 
it is immediately available to everybody else, including your 
adversaries.
    So, in this process, what recommendations do you have of 
how we protect ourselves with what we do come up with? And 
where do you see the pitfalls today?
    Secretary Griffin. Well, I guess I can go first.
    There are certain technologies that are and should be 
highly classified and certain programs that we do that are and 
should be highly classified that we should try to wall off from 
others, and we should make sure that we are successful at that.
    But I will offer--you are asking for a conclusion of the 
witness, and I will offer my opinion that the way to get ahead 
and stay ahead is to work harder and run faster. Even if we 
have a technological edge in a particular area--you can name 
the area--even if we have an edge, once an adversary knows that 
a certain thing is possible to do, even if they do not have 
exactly the same intellectual property that we used to do it, 
they will figure out a way. If they are intent on dominating 
us, our only recourse--our only recourse--is to work harder and 
run faster and stay ahead.
    And that is best enhanced by a free and open interchange of 
market technologies, the unhindered flow of capital and people 
to businesses that are successful and DOD enterprises that are 
successful, and, as Eric mentioned earlier, stopping those 
things that are not working. If we cannot be more agile than 
our adversaries, then in the long run they will win. I cannot 
say it another way.
    Dr. Wenstrup. No, I get that completely. I guess my 
question is, are we doing enough to slow down their speed, our 
adversary's speed, I guess? You know, you called it walling 
off. Is it really walled off, or is everything just getting 
out?
    Secretary Griffin. You cannot wall things off, sir, not 
permanently.
    Now, there are some things--there are a few more 
progressive news magazines than The Economist which championed, 
as I well remember, China's admission to the World Trade 
Organization a couple of decades ago. They now, just a few 
months ago, had an extensive article on Chinese practices of 
holding corporate IP [intellectual property] hostage if a 
corporation wants to manufacture in China. This is an unfair 
practice. Until and unless the United States and our allies are 
willing to push back on such practices, we will be handing IP 
over to an adversary.
    So there are some things we can do, but, broadly speaking, 
if we are not prepared to work harder, run faster----
    Dr. Wenstrup. Right. Right.
    Secretary Griffin [continuing]. And compete at the 
technological edge, then we will not win.
    Dr. Wenstrup. And I understand what you are saying, that 
they are going to catch up at some point anyway. But the point 
is to stay ahead. And so I think you were, in a way, making a 
recommendation there that we do not allow this to happen so 
readily and so quickly and so easily, for, say, China to 
inherit our information and technology.
    Secretary Griffin. Yes, sir, that is correct. I certainly 
think we should be not doing deals in which giving up our IP is 
contingent to the deal. That does seem remarkably shortsighted.
    Dr. Wenstrup. Thank you.
    I yield back.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    And thank you----
    The Chairman. Is your microphone on?
    Mr. O'Halleran. There we go.
    I would like to echo the ranking member's comments about 
the importance of developing tomorrow's technology and defense 
leaders through investments in STEM education and other 
programs that promote innovation.
    During your testimony today, you made some observations 
that I found extremely interesting. One of the issues we have 
talked about today is workforce and that it not only addresses 
the current issues but the future issues as we move forward; 
and the needs, additionally, for the DOD in areas like AI, 
which, you know, I was using consultants on AI in the late 
1980s, so I do not understand why we have not moved ahead 
faster on this area; cyber, where we have had people in here 
this year to address us, and they have indicated that by 2025 
we need another million people, both private and government, in 
that area; and other things that we have not even thought of 
right now.
    And you have mentioned about the universities. And our 
universities are great universities, but they are only going to 
be as good for us as the people that we send to them. And I 
believe that we cannot afford, as a country, to leave people 
behind that have the knowledge potential but lose it because of 
inability to get the type of education they need.
    And then we have talked here in committee, time and time 
again, about the all-of-government approach. And we do not seem 
to have the all-of-America approach to issues.
    So we have critical barriers in developing a high-tech 
workforce. Nearly 20 million Americans and one-quarter of rural 
communities do not have access to broadband. Lack of broadband 
access affects the ability of meaningfully expanding STEM 
initiatives in those areas and impacts businesses across the 
industrial base in rural areas. I believe without addressing 
this key infrastructure priority, our shared goal of sharing 
defense-related innovation among nontraditional and small 
businesses will not achieve its full potential.
    I also believe that if we do not clearly identify that 
our--whether it is preschool and to high school, that this 
transition is not--right now, it is not working for America, 
and we need to find a way to get that to work.
    I would like to ask the witnesses how the digital divide 
and lack of broadband impacts the culture of innovation at the 
Department of Defense and believes that it is necessary for 
today and tomorrow's national security.
    Thank you.
    Dr. Schmidt. No, thank you.
    The issue of broadband is crucial to economic growth in our 
country, to educational growth, to societal growth. There are 
groups still left behind.
    There is tremendous work in using licensed and unlicensed 
radio waves to achieve the last-mile problem in rural areas. So 
I have good news, that I think that in the next some number of 
years we will overcome even those challenges. It started in 
1996 with NetDay, when we wired up the schools; 20 years later, 
I think we are getting very close to it.
    I agree with your comment. Part of the reason that 
broadband is so important is that, on the educational side, 
which is what really affects the military, there are new tools 
and techniques being developed using AI for direct and personal 
learning which are available over broadband networks that are 
interactive and interesting and game-ified and so forth.
    So there is a possibility of reaching the most isolated and 
most disadvantaged person, you know, citizen who can really 
benefit from this in a way that can materially affect their 
careers, their quality of life, their education, and their 
suitability for military service.
    Mr. O'Halleran. Mr. Griffin.
    Secretary Griffin. Well, if there is anyone more in love 
with education than I, you would have to struggle to find him. 
So I agree with everything that has been said.
    You know, we need to do a better job of preparing our high 
school students to go to college. I have spent time as a 
college professor, and I would agree with the observation that 
our high school students are not coming to college as well-
prepared as they once were and that we should fix it. And one 
of the ways to fix that does involve broadband access for 
everybody. That is the modern world.
    Mr. O'Halleran. Thank you.
    And I yield.
    Secretary Griffin. And I do not know what the Department 
can do specifically, but I support your goals.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    Thank you, Dr. Griffin, Dr. Schmidt, for being here, for 
your service to our country. It is heartening to see a 
physicist, a technologist, answering the Nation's call to 
public service.
    Dr. Schmidt, in your book ``The New Digital Age,'' you and 
Jared Cohen anticipated a lot of the issues that we face today. 
You talked about data permanence and the problem with data 
permanence. You talked about the need for internet privacy.
    I agreed with your statement, Dr. Schmidt, about the 
technology competence in the Department of Defense, and I think 
Dr. Griffin cited the same thing. But I wonder, candidly, what 
both of you thought and whether you shared the dismay and, 
frankly, embarrassment that most Americans had, as they watched 
the Senate hearings and some of the Senators questioning Mark 
Zuckerberg, about the technology gap in the United States 
Congress and whether there are things we could do to help 
improve that.
    Secretary Griffin. I did not see the hearing and was not 
aware of it, and so I cannot offer you a useful comment, sir. I 
am sorry.
    Dr. Schmidt. I, too, did not watch the hearing. I am sorry.
    Mr. Khanna. Are there things, you think, that--do you think 
the United States Congress could improve our knowledge about 
technology?
    I mean, just to give you a sample, one of the Senators 
asked Mark Zuckerberg how does he make money on Facebook when 
he does not charge for the services. Another Senator did not 
know what cookies were. I mean, I can go through it.
    And I am not saying this in a disparaging way. I am just 
wondering, do you think--you have talked about the education. 
Do you think the United States Congress, to be able to deal 
with matters of defense and artificial intelligence, could use 
a better education?
    Dr. Schmidt. Well, I can say that the areas that we are 
describing now are pretty technical, and I would not expect an 
average citizen in good standing to understand them a priori. I 
do think that more briefings, for the benefit of the Congress, 
of the impact--I will pick my favorite area, artificial 
intelligence--would be helpful so that the leaders of our 
Nation can understand the good, the bad, the restrictions, what 
they are good for, what they are bad for, and their 
implications.
    My industry, as you know very well because you represent 
us, is gaga over AI and the application of it in our 
businesses. And it is important that our leaders understand the 
implications of all of that.
    Secretary Griffin. I mean, broadly speaking, I think most 
of us are aware that having educational and cultural and all 
kinds of diversity in decision-making groups aids the decision 
making. The more disparate points of view you can bring to a 
task before you have to actually make a decision, generally the 
better you will do. And so, if more working scientists and 
engineers and medical doctors and such ran for Congress, I 
think that would broadly be a good thing.
    But, you know, when--and I have had many years now of 
working with the Congress, and I do not generally find that the 
issues confronting us are caused by a failure of the Congress 
to understand what we are saying. The issues seem to be more 
systemic, as Dr. Schmidt was pointing out earlier. I could not 
choose better words, and so I will just try to quote him as 
best I can. We have great innovators in the Department that are 
trapped within a system that really does not work.
    As Winston Churchill famously said about democracy, it is 
the worst of all systems except for all the others we have 
tried. Some of these things seem to be just endemic to the 
nature of representational democracy, and we struggle on to do 
the best we can.
    Mr. Khanna. If I could ask one final question, and then I 
will give you both the last word.
    Dr. Schmidt, in your book, you did talk about privacy and 
regulation of privacy. And that is probably, as we are dealing 
with artificial intelligence and all the positives, probably 
more important than ever.
    Congresswomen Anna Eshoo, Zoe Lofgren, and I have been 
thinking about what an internet bill of rights would look like, 
something maybe not as expansive as the GDRP [General Data 
Protection Regulation] but within the American context.
    I wonder if you and Dr. Griffin have thoughts about how to 
get technology leaders part of that conversation and behind an 
idea that would assure the American public that the Congress 
can protect their privacy around some internet bill of rights 
in a bipartisan way.
    Dr. Schmidt. So there have been a number of attempts at 
doing this. And I think many people are sympathetic to the idea 
that you are proposing. The devil is in the details, as you 
know from being a legislator. And so I would encourage the 
three of you to work hard--you all know our industry very well, 
and you try to represent the Nation as strongly as you can--to 
try to find that balance.
    In our book, which was some years ago, we said you need to 
fight for your privacy or you will lose it. And I remember 
writing that sentence because it is so easy for the public 
information about you--or the private information about you to 
become available to the public without your knowledge. And I 
think there must be a way to enshrine that principle with the 
right balance between interests.
    Mr. Khanna. Thank you.
    The Chairman. Dr. Schmidt, let me ask one other question 
that occurs to me. We have talked about much of the innovation 
in the country occurs in the private sector. Especially for 
small businesses, it is hard to do business with DOD.
    But since you have a foot in both camps, what is the 
willingness of, say, the IT industry to do business with the 
Department of Defense? Is there a reluctance?
    Dr. Schmidt. Well, there is a general interest in doing 
business with the DOD. There is a general fear that the 
overhead costs will kill the startup.
    And it would be very helpful if we had a number of 
companies that had started with an idea, had help from the DOD 
to get through the process, and had ultimately become hugely 
successful in the new paradigm. And if we had a couple 
companies like that that we could point to in our narrative, I 
think that would encourage more of that.
    You know, the venture industry is a hits business, and so 
we need a couple of hits of companies that are good businesses 
that have also served the DOD in the things that it cares 
about. DIUx is an attempt at that. There are other initiatives 
within the DOD to do that. But we need a couple big wins.
    May I add, I wanted to say something to all of you, that it 
is important not to feel helpless when you are in our situation 
but, rather, be clear and assertive that this is a system, as 
Mike said, that operates under the laws of our Nation; we can 
change it.
    So we have highlighted a couple of examples of things which 
do not make any sense when you are in the middle of a system--
right? If I could paraphrase you, it just does not make any 
sense.
    Secretary Griffin. Exactly.
    Dr. Schmidt. Why do all of us not collectively engage in a 
discussion as to how we could eliminate some of those 
nonsensical behaviors, right, and at least have that debate?
    It feels like that debate is not occurring, to me. As a 
private citizen, it feels like everybody is sort of repeating 
the old criticisms--well, this contractor screwed up, or this 
procedure was a problem--rather than saying, this system was 
not architected. How would we architect a system to address at 
least the stupid stuff?
    I assume you are okay with that.
    Secretary Griffin. Again, I could not agree more. Eric and 
I have a remarkably consistent alignment.
    I simply know that, when developing new things that have 
not been done before, it is hard to get it right, it is easy to 
make mistakes along the way, and when you are doing it, you are 
guided by a single-minded focus on the end goal. But when I am 
doing that, I cannot tell you up front what the requirements 
ought to be, exactly how it is going to come out in the long 
run, what contractors I need, what people I need, what system 
practices I am going to use. It depends.
    And so, if in the advanced development stage--which I will 
say includes things up through operational prototype so that 
real operators can have some experience with the thing before 
deciding to go into production--if up through the operational 
prototyping phase you can give the Department as much 
flexibility as possible to not know exactly how we are going to 
get to the goals we all share, give us the flexibility to not 
know how we are going to get there, and hold us accountable for 
outcomes instead of processes, that is the best thing that you 
can do.
    Thank you, sir.
    The Chairman. That is helpful.
    The only thing I would quibble with you a bit about is, I 
do not think it is business as usual at this point. My sense is 
we have a combination of leadership at the Department that is 
committed to reforms. We have more bipartisan interest in 
Congress committed to reforms. And I have this sense of 
urgency, that you all have described in another sense, that 
this is a chance to improve our processes. Now, none of us will 
be satisfied, it will not go far enough, but we have an 
opportunity here that, with you-all's guidance and a little 
willpower, we can make significant improvements.
    And so that is one of the reasons that I wanted to have 
this hearing in public today. I appreciate very much both of 
you being here. And in about 5 minutes or so, we will continue 
our discussion in classified session upstairs.
    The hearing stands adjourned.
    [Whereupon, at 12:05 p.m., the committee proceeded in 
closed session.]



      
=======================================================================


                            A P P E N D I X

                             April 17, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2018

=======================================================================

      

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. In your view, would Congress be better able to engage 
with important defense issues if it had access to comprehensive and 
forward-looking technology assessments?
    Secretary Griffin. Yes, I believe that, in order to make informed 
decisions in this arena, the R&E enterprise should maintain open and 
thorough communications with Congress regarding the path forward for 
not only emerging technologies, but also emerging threats that drive 
our technical priorities. It is easier to understand the gravity of 
these challenges with comprehensive technology assessments that are 
both qualitative and quantitative in nature. In addition, technology 
assessments that are specific to existing and emerging priority areas 
such as hypersonics and directed energy can help scope the support 
needed from Congress, and ensure a common understanding of the most 
critical defense issues.
    Mrs. Davis. On which defense issues would it be helpful for Members 
of Congress to have comprehensive and forward-looking technology 
assessments?
    Secretary Griffin. Missile defense, space, nuclear modernization, 
hypersonics, directed energy, artificial intelligence, cybersecurity, 
quantum science, microelectronics, and fully networked command, 
control, and communications are all areas of needed technological 
advancement. These areas also require an understanding of the 
international competitive landscape at present and in the future to 
maintain a military edge. The Department and Congress would benefit 
greatly from an understanding of the future direction of technologies 
supporting these different areas as well as the Department's plans to 
mitigate any challenges to technological superiority in these areas.
    Mrs. Davis. How would you expect the OTA would be able to inform 
Congress' conversations on defense technologies?
    Secretary Griffin. I believe the DOD should continue to pursue 
collaboration with commercial entities using streamlined mechanisms 
such as Other Transaction Authority (OTA) to assess, evaluate and 
capitalize on the potential of new technologies and capabilities in 
order to provide a cost-effective warfighting advantage. We must 
continue to utilize non-traditional mechanisms to accelerate 
development and, ultimately, to deliver technologies more quickly and 
efficiently to the warfighter in the field. The OTA is a powerful tool, 
and I believe, when used properly, it is an important model for 
Congress to consider in the emerging conversation of current and future 
acquisition reform.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GALLAGHER
    Mr. Gallagher. When it comes to funding defense-relevant 
innovation, the private sector plays a key role--but market incentives 
aren't always aligned with defense interests. When it comes to defense 
innovation, U.S. venture capital often tends to focus on software, not 
hardware, given shorter return horizons and lower capital barriers. 
What, if any, concerns do you have about ``hard,'' non-software 
technologies being underfunded?
    Given the past success of organizations like In-Q-Tel, could a U.S. 
government-supported investment vehicle, focused on the non-software 
technologies in greatest demand to military leaders with the highest 
potential impact from investment, be of use to better capture 
innovation and leverage it in support of DOD objectives?
    Secretary Griffin. In-Q-Tel has been a valuable asset for the 
communities it serves, particularly with regards to leveraging American 
venture capital efforts in ways that provide critical innovation to the 
warfighter while allowing those private businesses to maintain their 
non-DOD business and products. I would support exploring options for 
DOD to partner with venture capital firms and investors to leverage 
hardware and software alike in a way that is beneficial to all parties. 
One challenge facing the Department and the Nation is that hardware 
vice software technology development underpins some of the desired 
defense capabilities. The longer time horizons (8-12 years) associated 
with hardware development provide challenges to some innovation funding 
mechanisms in use today such as venture capital funding. For example, 
the percentage of venture capital funding invested in software rose 
from 55% in 2006 to 92% in 2017. Anecdotally, this trend may be 
changing but the data is not yet compiled to verify this. I am 
exploring multiple approaches to address appropriate hardware 
technology development in partnership with private industry. The 
Microelectronics Initiative for National Security and Economic 
Competiveness is one example of an effort that is investing in creating 
state of the art hardware technology for the next generation of DOD 
capability. DARPA is providing its Program Managers with mentoring and 
support to help them navigate the venture capital world and increase 
the likelihood of transitioning ideas into commercially viable product. 
I am committed to pursuing opportunities to fully leverage partnerships 
with venture capital and industry that apply the nation's best 
expertise, creativity and innovation to advance our technology and 
improve our edge in warfare.
    Mr. Gallagher. When it comes to funding defense-relevant 
innovation, the private sector plays a key role--but market incentives 
aren't always aligned with defense interests. When it comes to defense 
innovation, U.S. venture capital often tends to focus on software, not 
hardware, given shorter return horizons and lower capital barriers. 
What, if any, concerns do you have about ``hard,'' non-software 
technologies being underfunded?
    Given the past success of organizations like In-Q-Tel, could a U.S. 
government-supported investment vehicle, focused on the non-software 
technologies in greatest demand to military leaders with the highest 
potential impact from investment, be of use to better capture 
innovation and leverage it in support of DOD objectives?
    Dr. Schmidt. I am concerned that key non-software technologies 
important to the Department of Defense are being underfunded. With the 
U.S. venture capital community focused primarily on software, due to 
the market incentives you reference, China is aiming to replace the 
U.S. as the global leader in these technologies, such as 
supercomputing, batteries and microelectronics, drone swarms, and more. 
This is concerning not only because it is important for the U.S. to 
maintain its technological edge over all adversaries, but also because 
if these technologies come to be dominated by China, their supply chain 
that leads to U.S. usage could become compromised, putting the U.S. in 
a permanently-precarious position. I believe an investment vehicle 
focused on non-software technologies could be one of numerous ways to 
address the funding gap in this area.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Considering the framework of the ``three P's'' for 
innovation culture--Proximity, how to properly position common areas 
and shared resources to encourage collaborative problem solving; 
Privacy, how to create spaces that facilitate private conversations and 
help people control interactions; and Permissions, how to encourage 
informal interactions with staff from different backgrounds and with 
different perspectives.
    Secretary Griffin, how is the Department releasing the innovation 
potential of its people?
    Secretary Griffin. The Department strives to foster an innovation 
culture by protecting stable science and technology funding, pursuing 
technical talent with a drive for innovation, encouraging creativity 
and appropriate risk taking, and recognizing and rewarding results 
achieved through innovation. We must prepare for an uncertain future 
with rapidly evolving and adaptive threats with innovative and 
disruptive technologies and the continued pursuit of opportunities for 
change. The Department has located several offices in proximity to 
major innovation hubs around the country to enable collaborative 
research and shared resources for efficiency. These offices include the 
Army Research Laboratory open campus offices in Adelphi, Maryland, 
Southern California, Austin, Texas, and Boston, Massachusetts as well 
as the Defense Innovation Unit Experimental (DIUx) in Silicon Valley. 
Additionally, we protect our most innovative concepts and facilitate 
collaborative work in controlled areas through our joint program 
offices and tri-service projects in high-visibility technologies. By 
leveraging the communities of interest and conducting outreach 
activities to industry and academia, the Department's top technical 
talent is empowered to interact with staff that have a range of 
backgrounds, expertise, and perspectives. Ultimately, the Department 
must be able to drive its military innovation cycle faster than any 
adversary to sustain technological superiority. Our competitors are 
closing the gap because of our processes, not our talent. The 
Department's research and engineering enterprise is committed to 
working with our partners across the DOD to ensure our workforce will 
leverage the full range of authorities granted from Congress to enable 
innovative business practices. In addition, the research and 
engineering enterprise will focus on engaging non-traditional partners 
in shaping our processes, technical focus/roadmaps, and understanding 
our comparative advantage.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. NSWC Crane has been successful at fostering the 
development of a robust and rapidly expanding innovation ecosystem. 
This nationally recognized model of regional collaboration has 
propelled NSWC Crane along with its partners to the forefront of 
technology development through its utilization of resources from 
industry, academia, and the public sector. This partnership has 
embarked on solving some of nation's toughest problems such as (but not 
limited to) trusted/assured microelectronics, hypersonic and artificial 
intelligence/machine learning.
    The Navy serves as the DOD's Executive Agent (EA) for Printed 
Circuit Board (PrCB) and Interconnect Technology which has the 
responsibility to ensure the DOD has trusted access to those 
technologies. From circuit cards to the microelectronics that populate 
them. Our DOD must have ``trusted assemblies'' to complete their 
mission.
    Dr. Griffin, Do you support an active oversight role in partnership 
with OSD within the Trusted and Assured Microelectronics Efforts/
Microelectronics Innovation for National Security and Economic 
Competitiveness (MINSEC) to fulfill the congressional mandate for DOD's 
EA to ensure the DOD has trusted access to those technologies?
    Secretary Griffin. One of my top priorities as Undersecretary of 
Research and Engineering is Microelectronics, which includes ensuring 
access to Trusted and Assured Microelectronics. As you recognize, NSWC 
Crane is an integral partner in this collaborative effort and provides 
important leadership and capabilities to achieve this priority. NSWC 
Crane specifically has a number of lead roles in Trusted and Assured 
Microelectronics, the Joint Federated Assurance Centers (JFAC), and 
Strategic Radiation Hardened Materials and Printed Circuit Boards 
(PrCB). We see them as a critical partner in the Microelectronics 
Innovation for National Security and Economic Competitiveness (MINSEC).
    Mr. Banks. NSWC Crane was major contributor to OSD and Strategic 
Systems Program's (SSP) recent successful FE1 Conventional Prompt 
Strike Flight Test. NSWC Crane exercised their innovation eco system to 
reach out to their university and industry partners to provide rapid 
solutions. As the program transition from OSD to the Navy, NSWC Crane 
role will grow and the innovation ecosystem will continue to be 
leveraged. Dr. Griffin, as the Undersecretary for Defense Research and 
Engineering, how can you work with the labs to ensure they have 
resources, authorities and facilities to execute their mission?
    Secretary Griffin. Strong and stable resources, along with existing 
authorities, greatly enhance the laboratories' abilities to operate 
more efficiently and effectively. Therefore, I will continue to 
advocate for and support proper resourcing for our laboratories and 
work to remove institutional barriers that hinder their use of flexible 
authorities. A severely aging infrastructure presents a significant 
challenge to our ability to maintain our technological edge over our 
adversaries. Laboratories must compete against other military 
construction projects for limited resources and have not fared well in 
this process. In the past, labs have had to rely on Congressionally-
granted authorities, such as Section 219, to largely sustain themselves 
and make much-needed upgrades through minor military construction 
funding. It is also vital the Lab Directors have the necessary hiring 
flexibilities, as well as good lab facilities, to entice a strong 
workforce. Our scientists and engineers play a prominent role in 
developing technologies that benefit the Nation as a whole and their 
subject matter expertise is essential for the Department to meet the 
needs of the Warfighter.
    Mr. Banks. Dr. Schmidt, how can the EA work closely with the DIB to 
accelerate solutions to the warfighter?
    Dr. Schmidt. In my capacity as Chair of the DIB, I've learned of 
NSWC Crane's important contributions and their unique role as both a 
research and development facility. The DIB has publicly stated AI's 
central importance to the Department of Defense, and accordingly, AI is 
a key area where DIB and Crane can work closely together on developing 
solutions, including in cybersecurity, logistics, training, 
communications, and many other critical domains. The DIB stands ready 
to partner with Crane in these ways.

                                  [all]
</pre></body></html>
